<html>
<title> - THE CURRENT AND FUTURE ROLES, MISSIONS, AND CAPABILITIES OF U.S. MILITARY LAND POWER</title>
<body><pre>[Senate Hearing 111-114]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-114
 
   THE CURRENT AND FUTURE ROLES, MISSIONS, AND CAPABILITIES OF U.S. 
                          MILITARY LAND POWER

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON AIRLAND

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2009

                               __________

         Printed for the use of the Committee on Armed Services


                  U.S. GOVERNMENT PRINTING OFFICE
52-749                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                        Subcommittee on Airland

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

EVAN BAYH, Indiana                   JOHN THUNE, South Dakota
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
KAY R. HAGAN, North Carolina         SAXBY CHAMBLISS, Georgia
MARK BEGICH, Alaska                  RICHARD BURR, North Carolina
ROLAND W. BURRIS, Illinois

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

   The Current and Future Roles, Missions, and Capabilities of U.S. 
                          Military Land Power

                             march 26, 2009

                                                                   Page

Krepinevich, Andrew F., Jr., Ph.D., President, Center for 
  Strategic and Budgetary Assessments............................     5
Donnelly, Thomas, Resident Fellow, American Enterprise Institute 
  for Public Policy Research.....................................    16
Mansoor, Peter R., Ph.D., General Raymond E. Mason, Jr., Chair of 
  Military History, The Ohio State University....................    25

                                 (iii)


                     THE CURRENT AND FUTURE ROLES,
                   MISSIONS, AND CAPABILITIES OF U.S.
                          MILITARY LAND POWER

                              ----------                              


                        THURSDAY, MARCH 26, 2009

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:01 p.m. in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Hagan, 
Begich, Burris, Inhofe, and Thune.
    Majority staff members present: Creighton Greene, 
professional staff member; Michael J. Kuiken, professional 
staff member; and William K. Sutey, professional staff member.
    Minority staff members present: William M. Caniano, 
professional staff member; Paul C. Hutton IV, professional 
staff member; and David M. Morriss, minority counsel.
    Staff assistants present: Ali Z. Pasha, Brian F. Sebold, 
and Breon N. Wells.
    Committee members' assistants present: Todd M. Stein, 
assistant to Senator Lieberman; Jon Davey, assistant to Senator 
Bayh; Gordon I. Peterson, assistant to Senator Webb; Julie 
Holzhuenter, assistant to Senator Hagan; David Ramseur, 
assistant to Senator Begich; Brady King, assistant to Senator 
Burris; Lenwood Landrum, assistant to Senator Sessions; and 
Jason Van Beek, assistant to Senator Thune.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The Airland Subcommittee will come to 
order. Good afternoon. Let me first say, since this is our 
first subcommittee hearing this year, how much I look forward 
to working with my colleague and friend, Senator John Thune, in 
his capacity as ranking member of the subcommittee. We've had a 
very good line of partners in this subcommittee. I guess I go 
back to Senator Santorum, Senator McCain, and Senator Cornyn; 
they always worked in a bipartisan way on behalf of our 
military, and I know we will here as well.
    The Airland Subcommittee meets this afternoon in the first 
of two hearings intended to broadly explore the Nation's 
current and future roles and requirements for military land and 
air power. This afternoon we focus on land power. We're going 
to follow with an additional hearing next month on air power.
    It's the intent of these hearings to identify requirements 
for our land and air power as part of our primary 
responsibility to authorize funding for the programs for air 
and land power that we conclude are necessary to provide for 
the common defense. But we also do so this year to anticipate 
the administration's reassessment of the National Security 
Strategy, the National Military Strategy, and the Quadrennial 
Defense Review.
    Over nearly 8 years of war in Iraq and Afghanistan, we've 
watched with pride and gratitude the magnificent performance of 
America's land forces, our soldiers and our marines. They have 
repeatedly shown that they can rise to the challenge on 
battlefields on which they have not fought before. They have 
adapted through major combat operations, counterinsurgency, and 
irregular warfare in response to evolving challenges that they 
have faced in battle.
    But I believe that we have not done enough to support our 
ground forces' transformation or to prepare them to meet future 
threats. That's why at today's hearing I hope our witnesses 
will help us answer three basic questions: What threats are 
American ground forces likely to face in the foreseeable 
future? Is American land power now sized, organized, and 
equipped to defeat those threats? If not, what changes do we 
need to make in the size, organization, and equipping of 
American land power?
    It is encouraging that the Army and Marine Corps have 
achieved the targets for end strength growth that members on 
both sides of this committee and in the Senate worked hard to 
set 3 years ago. But I don't believe that this growth is 
sufficient to meet current and future land power requirements. 
I'm concerned that in the near term the Army will not be able 
to finish building all of its remaining 48 Active Duty brigade 
combat teams or the critically necessary enablers that they 
require; and that this growth will be insufficient in the long 
run for the Army to stand up any additional specialized units 
that it needs. We have to organize the force to do the missions 
we ask of it and provide the force with the personnel it 
requires.
    The Obama administration is also reassessing the Department 
of Defense's (DOD) previous strategy for modernizing our land 
forces. Although the fiscal year 2010 defense budget request 
has not been delivered yet in detail to Congress, there are 
reports that defense procurement funds will probably be 
redirected from the Army's most technologically sophisticated 
programs toward capabilities that target counterinsurgency or 
irregular warfare.
    I'm very interested and concerned about the 
administration's plans for the Army's major modernization 
program, the Future Combat Systems (FCS) program. We've 
invested a lot of money into FCS and some of the results are 
already helping our warfighters. But we have to ask now in this 
particular environment what is the future of the FCS program? 
Should it be modified, terminated, or continued on its present 
course?
    The defense budget will also face pressure because of the 
need to reset the equipment that has been used in our ongoing 
wars while also shifting new resources to support the fight in 
Afghanistan.
    In short, this is a time when we really have a 
responsibility to conduct an examination of our Nation's land 
power and its needs. To help us with that examination today 
we're fortunate to welcome a panel of really extraordinary 
witnesses whose testimony will provide I think a range of views 
with respect to the current state and future roles and 
requirements for our ground forces and help us answer the 
questions that I have posed.
    With that, Senator Thune, I would welcome an opening 
statement.

                STATEMENT OF SENATOR JOHN THUNE

    Senator Thune. Thank you, Mr. Chairman, and I too look 
forward to working with you. You've outlasted a number of our 
colleagues on this subcommittee, but you've been a great leader 
on these issues and I'm certainly honored to have the 
opportunity to work with you on what are going to be important 
national security issues to come before this subcommittee and 
the full committee in the days ahead.
    I think this is an important hearing. I want to join you in 
welcoming our witnesses. In the next few months this 
subcommittee may be called upon to make some very consequential 
budget decisions on a number of major defense acquisition 
programs. None of these decisions are going to be easy. These 
decisions will require this subcommittee and the entire 
Congress to make careful assessments of the risks and tradeoffs 
associated with each program.
    This hearing will help inform those assessments and sharpen 
our thoughts about the character of future land warfare. 
Specifically, I want to hear the witnesses' views on whether or 
not land forces acquisition programs, along with the roles and 
missions assigned to our land forces and the forces' size, 
organization, and training, are suitable or at least 
sufficiently agile.
    I believe it's reasonable to assess that the precise 
requirements for land forces will continue to evolve through 
the first quarter of this century and that the geopolitical 
implications of the current economic crisis on our national 
security and the security of our allies have not been fully 
realized. This makes the future character of land power all the 
more complex. The range of diverse threats and trends that our 
land forces must be prepared to address will likely escalate.
    While some have called this an era of persistent conflict, 
I submit it may certainly be persistent, but I'm concerned that 
the future will be more uncertain and more unstable. 
Accordingly, I sense the character of the era of persistent 
conflict will be more irregular than conventional.
    The subcommittee will want to hear and learn the witnesses' 
views on the difficult threats and rising trends we will face 
in the decades to come and the implications for our land 
forces.
    In January, DOD released the 2009 Quadrennial Roles and 
Missions (QRM) review report. Within the 2009 QRM review, DOD 
defined its core missions as missions for which DOD is uniquely 
responsible, provides the preponderance of capabilities, or is 
the U.S. Government lead as established by national policy. The 
QRM review found that DOD's core mission areas are: homeland 
defense and civilian support; deterrence operations; major 
combat operations; irregular warfare; military support to 
stabilization; security, transition, and reconstruction 
operations; and military contribution to cooperative security.
    This is clearly a full spectrum of operations and each has 
a sizable land force component. Do we have land forces that are 
designed and organized to rapidly adapt across the entire 
spectrum of operations? Do the Army's modular organizations 
give us versatile capability? Is the size and projected growth 
of our land forces sufficient? Is the education of our military 
leaders adequate? The subcommittee will want to learn the 
witnesses' thoughts on these important issues.
    Our soldiers and marines have been deployed almost 
continually since 2001, performing courageously against 
adaptive enemies. The strain on our forces and their families 
has been significant. The state of the Army is, as General 
Casey testified, out of balance. General Casey has also said 
we're not able to build depth for other things; we're running 
the All-Volunteer Force at a pace that is not sustainable.
    The subcommittee will want to hear the witnesses' opinions 
on the principle of balancing our force, the future of the All-
Volunteer Force, the utility of the Army force generation 
(ARFORGEN) model that is used to build readiness, and the 
future roles and missions of the Reserve component land forces.
    In closing, the subcommittee will benefit from the 
witnesses' opinions on the utility of some major acquisition 
programs. Specifically, we'll ask their views on the Army's FCS 
program. FCS is the centerpiece of the Army's modernization 
effort and it's intended to make the Army a lighter, more 
agile, and more capable combat force.
    In recent weeks the Government Accountability Office (GAO) 
cast doubt about FCS. GAO found the FCS critical technologies 
are not currently at a minimum acceptable level of maturity and 
that the FCS acquisition strategy is unlikely to be executed 
within the current $159 billion cost estimate. Our witnesses 
will be asked their views on the FCS program and whether or not 
there are other modernization routes for the Army.
    Mr. Chairman, I thank you and I look forward to hearing the 
testimony of our witnesses today.
    Senator Lieberman. Thank you, Senator Thune, for that very 
thoughtful statement.
    I want to welcome Senator Hagan, Senator Begich, and 
Senator Burris to the subcommittee. We're honored to have you 
here, and I don't want to not welcome back Senator Inhofe.
    We have three really great witnesses today. I asked the 
staff how they decided on the order and the good news/bad news 
for you, Andy, is that you're first because they've decided 
you're most senior. [Laughter.]
    Andrew Krepinevich is President of the Center for Strategic 
and Budgetary Assessments (CSBA) here in Washington. He's 
appeared before the Senate Armed Services Committee on many 
occasions before. His most recent study is ``An Army at the 
Crossroads,'' one of the CSBA's studies intended to contribute 
to the new administration's defense strategy review.
    I just finished reading--and I really did read it--his 
``Seven Deadly Scenarios'' book, which is really riveting and 
thought-provoking reading, and I'd recommend it to all my 
colleagues. I don't get any commissions on the sales, so that's 
really said from the bottom of my head. [Laughter.]
    Dr. Krepinevich, please proceed.

  STATEMENT OF ANDREW F. KREPINEVICH, JR., PH.D., PRESIDENT, 
         CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman. I will summarize 
the remarks in my testimony.
    Senator Lieberman. We'll include your testimony and all the 
others, as if read in full. You each did a lot of work on them. 
I appreciate it.
    Dr. Krepinevich. I think the question of what kind of an 
Army do we need was a question that was fairly easily answered 
for much of the 20th century. The first half of the 20th 
century, the answer was we need an Army to beat the German 
army; World War I, World War II. The second half of the 20th 
century, we needed an Army to beat the Soviet army. These were 
armies that looked a lot like ours.
    When you ask that question today, what kind of an Army do 
we need, there is no other army out there like our own. Both 
General Casey and the Secretary of Defense have said we are in 
an era of persistent conflict. I would insert one word into 
that phrase: We are in an era of persistent irregular conflict. 
The wars we have been waging for the last 8 years, what we're 
engaged in now and what we are likely to be engaged in for the 
foreseeable future, are irregular wars.
    When you begin to address the question of what kind of an 
Army we need, I think you need to take that fundamental shift 
into account. We need an army that is expert at irregular 
warfare, a business in a sense we got out of after the Vietnam 
war and have recently gotten back into.
    But we also need an Army that can hedge against other kinds 
of conflicts, specifically conventional conflict. The problem 
that the Army has had is that the Army has a limit on its size, 
both in terms of the human resources it can reasonably attract 
at an acceptable cost and the force that it can modernize over 
time. As a consequence of that, the Army has said, ``look, 
because we can only be so large and because the number of 
contingencies are great both at the high end and the low end, 
we need to have a full-spectrum Army. We need an Army where our 
brigades are fully capable of operating both at the high end of 
the conflict spectrum and at the low end, with high levels of 
proficiency and on short notice.''
    The question that concerns me is, while this may be 
desirable, it's not at all clear that it's possible. It's not 
clear that you can rapidly switch from the skill set that is 
required, as Lieutenant General William B. Caldwell, USA, 
Combined Army Center, said, of strategic corporals in irregular 
warfare to then participate in what I call the FCS ballet, the 
highly networked aggregation of 14 different systems waging 
high-intensity warfare.
    The point I think also is that not only are we asking more 
of our soldiers, but if you look at the quality in terms of the 
way the Army measures quality of the officer corps, the 
noncommissioned officer (NCO) corps, and the enlisted force, 
that quality has gone down, which I think is another reason why 
it's really a bit risky to say that we can have a full-spectrum 
Army, an Army that can seamlessly shift gears from one form of 
war to another.
    Moreover, even if we have an Army that is 48 brigades, that 
can handle these kinds of missions, even if you grant the Army 
that assumption, the problem is a lot of the contingencies that 
we anticipate today or concern ourselves with today; what 
happens if there is a conflict in Iran and you have post-
conflict operations, what happens if Pakistan comes apart at 
the seams, Nigeria or Indonesia?
    There are any one of a number of planning scenarios that by 
themselves would overwhelm even a 48-brigade Army with a 28-
brigade Reserve component.
    You see the wisdom in the strategy that was developed in 
2006, but which really hasn't been embraced. The strategy is 
the strategy of the indirect approach or building partner 
capacity. The source of our advantage isn't in a large quantity 
of manpower; it's in the quality of manpower that we have, the 
skills of the relatively small numbers of soldiers that are in 
the Army. So the idea is to leverage that quality by over time 
building up indigenous forces in other countries that are 
threatened by instability and state failure.
    My point of view has been that as a consequence of that 
when the Chief of Staff of the Army talks about rebalancing the 
force, what you really need is a force that's balanced between 
conventional high-end operations and irregular warfare or 
stability operations. Essentially, we need an Army that has two 
wings to it, not an Army with divisions that only fight 
conventional war and brigades that only wage irregular warfare, 
but an Army that has brigades that are oriented, although not 
optimized, for irregular warfare and an Army that also has 
brigades that are oriented but not optimized for conventional 
warfare.
    Right now we have an Active Force where the plan is to have 
19 of 48 Active brigades be heavy brigades. Forty percent of 
the Active Force is going to be oriented on conventional war. 
There are zero brigades that are oriented specifically on 
stability-cooperation operations.
    Also, what I find ironic is that, while 40 percent of the 
Active Force is oriented on high intensity warfare, only 25 
percent of the Reserve Force is, this despite the fact that the 
Active Force can be deployed more frequently in protracted 
irregular warfare operations. So I do believe that there is 
this imbalance, and I do believe that when the Secretary of 
Defense worries about the Army not institutionalizing what it's 
learned in the wars in Afghanistan and in Iraq and the global 
war on terrorism, he is concerned that the center of gravity is 
going to pull the Army back toward its traditional comfort 
zone, which is high-end conventional conflict.
    So if you had a balanced force you'd be looking at brigade 
combat teams that were oriented on irregular warfare, a more 
formal training and advisory capacity, and also a governance 
capacity, because the Army has signed up to the task of showing 
up and providing governance support in the event that the 
interagency team fails to show up.
    This has significant implications for modernization. FCS 
was originally designed with a vision toward open battle and 
conventional warfare operations. Having said that, I think 
there are four areas of risk associated with FCS. First is 
fiscal risk, as the chairman pointed out. A second is technical 
risk, as the GAO study pointed out. A third is temporal risk, 
and a fourth is operational risk.
    To the extent that we overweight our investments toward FCS 
and accept these kinds of risks, I think we jeopardize our 
ability to properly reset the force, and also we ignore the 
issue of the need prospectively for what I would call war 
reserve stocks. If we are going to be in the business of 
building partner capacity and if we are going to be in the 
business of doing that rapidly, we are going to have to have 
stockpiles of equipment so that we can in the future help build 
up military forces that can provide for their own security or, 
as the case indicates now, building up the Afghan National 
Army, for example, and equipping them in ways that will enable 
them to take on more of the responsibility from our forces 
there.
    I'll mention one final thing and that's what I would call 
the guided rockets, artillery, mortars, and missiles (GRAMM) 
threat. Some people call it hybrid warfare. I think the clear 
example here is the second Lebanon war in 2006, where Hezbollah 
fired roughly 4,000 projectiles into Israel, and several 
hundred thousand Israeli citizens had to be evacuated. The 
Israelis had to shut down their oil refining and distribution 
system for fear that a lucky hit would cause untold damage.
    I think the Army has a real mission here in terms of 
looking at how air and missile defenses, counterbattery fires, 
and things like hunter-killer teams can begin to deal with this 
nascent threat that I think over the next decade will become a 
more direct threat to us.
    So in summary, what I see is a fundamental shift, a very 
difficult question that was an easy question to answer in the 
20th century, and an important question to address at this 
time, not just because the threat has changed, but also because 
you can only reset the force once. Congress has generously 
offered to write that big check, but once you write that big 
check for that equipment that's supposed to be in the field for 
10, 20, or 25 years, particularly in this fiscal year, it 
becomes a very difficult task to accept a response 5 years down 
the road: ``Gee, we made a mistake; please, we need to reset 
again.''
    So again, my belief is that the chief is right, what we 
need is a rebalanced Army, but the kind of Army that we're 
looking at right now is in my estimation far too rebalanced and 
oriented on traditional or conventional military operations.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Krepinevich follows:]

            Prepared Statement by Dr. Andrew F. Krepinevich

                              INTRODUCTION

    Thank you, Mr. Chairman, for the opportunity to appear before you 
today, and to share my views on the future of U.S. Ground Forces. As we 
begin a new administration, we are sobered by the security challenges 
that have emerged in recent years: the attacks of September 11; the 
deployment of U.S. troops to Iraq and Afghanistan; the erosion of 
barriers to nuclear proliferation; and the rapid rise of China and 
resurgence of Russia. Not surprisingly, there is considerable interest 
in what this portends for the U.S. military in general and our ground 
forces in particular.
    Of course, any detailed discussion of how our ground forces might 
best be organized, structured, trained, and equipped to meet the 
challenges of a rapidly changing security environment should be 
informed by a sound national security strategy. Anything less would be 
putting the cart before the horse. The Obama administration has a 
strategy review underway. This review stands to be the most important 
review since the Cold War's end.
    My testimony is focused primarily on the Army, given the dominant 
position it holds in providing ground forces for our country.\1\
---------------------------------------------------------------------------
    \1\ My testimony is essentially a summary of my monograph on the 
Army. See Andrew F. Krepinevich, An Army at the Crossroads (Washington, 
DC: CSBA, 2008).
---------------------------------------------------------------------------
            THE NATIONAL SECURITY CHALLENGES FACING THE ARMY

    The three challenges confronting the U.S. military today--the war 
against Islamist terrorist elements, the prospect of nuclear-armed 
rogue states, and the potential rise of China as a military rival--
differ greatly from those confronted during the Cold War era. Nor do 
they resemble the threats planned for in the immediate post-Cold War 
era, when minor powers like Iran, Iraq, and North Korea which lacked 
weapons of mass destruction and were assumed to present challenges not 
all that different from Iraq during the first Gulf War. Nevertheless, 
this assumption led the U.S. military to focus its attention on waging 
two such conflicts in overlapping timeframes from 1991 until the 
September 11 attacks.\2\
---------------------------------------------------------------------------
    \2\ The two major regional conflict posture was succeeded by the 
two major theater war and major combat operations (MCO) postures, which 
essentially represented variations on the same theme: regional wars 
against minor powers in the Persian Gulf and Northeast Asia. The U.S. 
force posture did not begin to change significantly until after the 
September 11 attacks and the onset of the wars in Afghanistan and Iraq.
---------------------------------------------------------------------------
    For the Army, these new challenges all suggest the onset of an era 
of persistent, irregular conflict. The wars in Afghanistan and Iraq 
show no signs of ending soon. The same can be said regarding the war 
against Islamist terrorist groups operating around the globe. Moreover, 
the rising youth bulge in Africa, the Middle East, Central and South 
Asia, and in parts of Latin America only promises to increase the 
strain on governments in these regions, increasing the prospect for 
further instability and even state failure. As unprecedented numbers of 
young people in these parts of the world come of age, they will find 
themselves competing in a global economy in which they are hampered by 
a lack of education and burdened by corrupt and incompetent 
governments. The communications revolution will enable radical groups 
to influence large numbers of these young adults, and attempt to 
recruit them. Even if radical elements succeed in winning over only 1 
percent of the young as they rise to adulthood, they will have 
recruited millions to their cause. For much of history, large numbers 
of people were required to cause disruption and destruction. Yet as 
groups like Aum Shinrikyo,\3\ al Qaeda, and Hezbollah have shown, 
thanks to the advent and spread of highly destructive technologies even 
small groups can create widespread disorder.
---------------------------------------------------------------------------
    \3\ On March 20, 1995, members of a Japanese cult, Aum Shinrikyo, 
released sarin nerve gas in a coordinated attack on five trains in the 
Tokyo subway system. Although the attack was botched, 12 commuters were 
killed and 54 seriously injured, while nearly 1,000 more people 
suffered some ill effects. Kyle B. Olson, ``Aum Shinrikyo: Once and 
Future Threat?'' Centers for Disease Control, accessed at http://
www.cdc.gov/ncidod/eid/vol5no4/olson.htm, on March 21. 2009.
---------------------------------------------------------------------------
    It does not end there. Should minor powers hostile to the United 
States, such as Iran, acquire nuclear weapons, they will likely feel 
emboldened to take greater risks in backing groups pursuing ambiguous 
forms of aggression. In Iran's case, this could lead to greater support 
for radical groups like Hamas, Hezbollah, and the Mahdi Army, as well 
as others. If the United States is unable to convince China to abandon 
its attempts to exclude the U.S. military from East Asia and to 
threaten America's access to the global commons, the competition could 
spill over into irregular proxy wars in developing nations. China could 
pursue this path both in an attempt to tie the United States down in 
costly, protracted conflicts, and to position itself to secure access 
to important or scarce raw materials.

                         A FULL-SPECTRUM FORCE

    Given the advent of an era of persistent irregular conflict, with 
its emphasis on manpower-intensive operations on land, the Army is 
destined to play a central role in U.S. defense strategy. The Service 
will need to build on its hard-won expertise in conducting these kinds 
of operations, whether they go by the name of stability operations; 
foreign internal defense; internal defense and development; stability, 
security, transition and reconstruction operations; counterinsurgency; 
or irregular warfare.\4\ At the same time, the Army must also hedge 
against a resurrection of rivals who look to challenge its dominance in 
more traditional, or conventional, forms of warfare.
---------------------------------------------------------------------------
    \4\ While the U.S. Armed Forces appear to have little need to 
segment conventional warfare into discrete types, the same cannot be 
said of warfare at the lower end of the conflict spectrum. In addition 
to the various ``flavors'' of this form of warfare mentioned above, one 
might add peacekeeeping and peace enforcement operations, operations 
other than war, among others.
---------------------------------------------------------------------------
    These disparate missions argue for an Army that can operate 
effectively across the entire conflict spectrum. However, because the 
range of missions is so broad, and the skill sets required sufficiently 
different, attempting to field forces that can move quickly and 
seamlessly from irregular warfare to conventional warfare seems 
destined to produce an Army that is barely a jack-of-all-trades, and 
clearly a master of none. This approach becomes all the more 
problematic when one considers the ongoing erosion of quality in the 
officer and noncommissioned officer (NCO) corps, and in the Service's 
recruiting standards.\5\ Yet this is what the Army is attempting to 
accomplish through its full-spectrum force.
---------------------------------------------------------------------------
    \5\ Bill Sasser, ``Strained by War, U.S. Army Promotes Unqualified 
Soldiers,'' July 30, 2008, accessed at http://www.salon.com/news/
feature/2008/07/30/sergeants/index.html?source=rss&aim =/news/feature, 
on August 29, 2008.
---------------------------------------------------------------------------
    The Army has understandably felt compelled to pursue the ``full-
spectrum'' approach owing to the need to cover a range of missions 
within the limitations on its size imposed by fiscal constraints and 
its all-volunteer character. Yet even if this approach were viable, the 
Army remains too small for larger irregular warfare contingencies, let 
alone those that occur simultaneously.
    Fortunately, the authors of the U.S. defense strategy have wisely 
chosen to address the gap between the scale of the challenges 
confronting the Nation and the forces available to address them by 
focusing on building up the military capabilities of threatened states, 
and of America's allies and partners. The Army must give greater 
attention to supporting this strategy, especially with regard to 
stability operations, as the best means of addressing the challenge of 
preparing to conduct operations at high levels of effectiveness across 
the conflict spectrum.
    The Army has specialized forces. It will need more.
    The Service has for decades fielded forces specialized for airborne 
operations and air assault operations. Of course, the Army also has its 
Special Forces, expert in a range of irregular warfare operations. It 
has forces specially designed for high-end warfare, and plans to 
continue in this vein with the Future Combat Systems Brigade Combat 
Teams (FCS BCTs), which the Army properly recognized are optimized for 
conventional warfare. These kinds of forces are designed to surge on 
short notice to address conventional contingencies. While it was once 
argued that such general-purpose forces could readily shift gears to 
handle contingencies at the lower end of the conflict spectrum, the 
evidence of Vietnam, Afghanistan and Iraq suggests the contrary. 
Moreover, the Army's new doctrine confirms the triumph of real-world 
experience over wishful thinking. Thus what the Army lacks are forces 
designed to surge in the event of a major contingency at the lower end 
of the conflict spectrum, as well as forces designed to prevent such a 
contingency from arising in the first place.
    The Army needs to field two surge forces, one for conventional 
operations, the other for irregular warfare. Should either form of 
conflict prove protracted, the other wing of the force could, over the 
course of the initial 12- to 15-month surge, undergo training and the 
appropriate force structure modifications to enable it to swing in 
behind the surge force to sustain operations.
    This approach might be termed the dual-surge Army, comprising two 
wings, one oriented (but not uniquely specialized in) operations along 
the lower end of the conflict spectrum, while the other wing would be 
oriented on operations along the high end of the conflict spectrum. 
Structured in this manner, the Army could rightfully claim to be a 
truly capable full-spectrum force.

              THE NEED FOR IRREGULAR WARFARE CAPABILITIES

    The Army's most immediate and pressing missions are those related 
to irregular warfare. The Department of Defense (DOD) is pursuing an 
indirect strategy with regard to the challenges posed by this form of 
conflict. This makes sense, both as a means of avoiding having U.S. 
forces tied down in protracted conflicts, and because internal threats 
are typically best handled by indigenous forces. It is also necessary, 
as the U.S. military simply lacks the capability to create the security 
conditions necessary to enable stability on the scale that might be 
required. Consider that the Army is fully engaged in Afghanistan and 
Iraq, countries whose combined populations are under 60 million. Yet 
countries of significant concern to the United States, like Iran (70 
million), Nigeria (150 million) and Pakistan (165 million) have far 
greater populations. Hence the need to ``build partner capacity'' in 
the security forces of friendly countries threatened by instability, 
and in allied and partner countries which could assist in restoring 
order should the regime of a hostile state (e.g., Iran) collapse.
    With respect to friendly States the best strategy is to build 
partner capacity and engage in other preventive measures before a 
friendly country is at risk. The Army must be prepared to engage in 
substantial steady-state peacetime training and advising of indigenous 
security forces, when requested by the host nation. These efforts 
should be undertaken on a scale appropriate to the situation, and 
within the host nation's comfort level. In an era of persistent 
irregular conflict, the Army will need to conduct persistent training 
and advising operations, much as maritime forces over the years have 
conducted peacetime forward-presence operations as a means of 
maintaining stability by reassuring partners and demonstrating resolve 
to rivals.
    In the event preventive measures fail, the Army must have the 
ability to build partner capacity rapidly, creating an indigenous/
allied surge capability that can begin to restore stability to the 
threatened area. In circumstances where U.S. vital interests are at 
stake, the Army must also be able to surge its own forces into the gap 
while partner capacity is being created. The effort to build partner 
capacity will typically find the Special Operations Forces (SOF) in the 
lead. However, given their relatively small size, the large demands 
placed on SOF by the protracted war against Islamist terrorist groups, 
and the prospective scale of the contingencies involved, the Army and 
its sister Services must be prepared to conduct training and advising 
of host-nation and, where necessary, allied and partner militaries. 
Moreover, if the Army's partners in the U.S. Government's interagency 
element--e.g., the State Department, the Intelligence Community, United 
States Agency for International Development, etc.--prove unable to meet 
their obligations as partners in restoring stability, the Army must 
also be prepared to engage in operations to help restore the threatened 
state's governance and infrastructure, and the rule of law.
    Consequently, the Army must maintain a significant standing 
training and advisory capability that can be deployed on short notice, 
when necessary. This capability can reside within the institutional 
Army, in the form of officers and noncommissioned officers assigned to 
Army schools as instructors or students; at Army headquarters (e.g., 
the Training and Doctrine Command); or as staff, faculty and students 
at a school where instruction is given on how to serve as a trainer or 
advisor. Rather than stripping existing brigade combat teams of their 
officers and NCOs to support the training and advisory mission, thereby 
eroding their effectiveness, the institutional Army can provide a surge 
capability while the Service leverages its existing school-house 
facilities to generate additional trainers and advisors.
    Since the Army may need to fill gaps in the U.S. interagency effort 
to restore governance and enable economic reconstruction and sustained 
growth, it must remain capable of responding quickly as part of any 
surge effort. Given this requirement, the Army should strongly consider 
maintaining the ability to field, on short notice, Civil Operations, 
Reconstruction and Development Support (CORDS) groups capable of 
providing advice, mentoring, and support to the host nation's 
nonsecurity institutions (including its civil administration and its 
legal, economic, and healthcare sectors). The CORDS groups should be 
capable of creating parallel advisory offices to host-nation ministries 
at the national, regional, provincial, and (on a rotating basis) local 
levels. They must also have the ability to undertake quick impact 
projects immediately upon deployment; develop annual plans for civil 
operations, reconstruction, and economic development; and engage in 
longer-term capacity-building efforts. The Army's CORDS groups would 
vary in size depending on the circumstances, but they should include 
military personnel (including personnel from the other Services), 
civilians made available from other executive departments and agencies, 
and expert personal services contractors.

             MAINTAINING DOMINANCE IN CONVENTIONAL WARFARE

    The Army also needs to maintain a dominant capability for high-end 
conventional warfare, of which the most demanding form is likely to be 
major combat operations (MCOs) whose objective is to effect regime 
change of a minor nuclear power. The Army must preserve its dominant 
position in this form of warfare to dissuade rivals from contemplating 
threatening U.S. security interests by employing conventional forces. 
It is important to remember, however, that modern conventional 
operations are inherently joint, and U.S. dominance in air power 
provides the Army with a priceless advantage in conducting conventional 
operations, as we have seen in both Gulf Wars, the 1999 Balkan War, and 
during Operation Enduring Freedom in Afghanistan in 2001-2002. While 
these factors may enable the Army to take more risk in the area of 
conventional capabilities, it does not obviate the need to sustain the 
Service's dominant position. The focal point of this effort should be 
creating a combined-arms battle network land force linked to the U.S. 
military's overarching joint battle network.

                      DEFENDING THE U.S. HOMELAND

    The Army must also meet its obligations to defend the U.S. 
homeland. Most of the skills and capabilities required to support this 
mission are also required to conduct the two basic missions described 
above. Stability operations involve Army units engaged in providing 
population security, securing key infrastructure, enabling 
reconstruction, restoring governance, and numerous other tasks 
associated with defending the homeland and supporting post-attack 
recovery. The same can be said of Army capabilities at the other end of 
the conflict spectrum, which may involve defense against a weapon of 
mass destruction attack, damage limitation in the event of an attack, 
and consequence management following an attack. The same can be said of 
the skill sets and capabilities required to deal with the so-called 
hybrid threat, such as that confronted by the Israelis in combating 
Hezbollah in the 2006 Second Lebanon War.

                   SECURITY COOPERATION BRIGADE TEAMS

    A requirement also exists for an Army surge capability for 
stability operations in the form of Security Cooperation Brigade Combat 
Teams (SCBCTs). These brigades should also serve as the Army's Phase O 
forward-presence forces, designed to keep weak states from becoming 
failed or ungoverned states. The SCBCTs, while similar to Infantry 
Brigade Combat Teams (IBCTs) in many respects, would incorporate some 
significant differences. They would have one artillery battery instead 
of two in their fires battalion. Relative to IBCTs, SCBCTs would have 
an augmented Special Troops Battalion, while their military 
intelligence company would be increased in size and accord greater 
emphasis on human intelligence and expertise in operating on complex 
human terrain. The SCBCT's military police contingent would have two 
companies, not one, as in the IBCT. Strong consideration should be 
given to increasing the SCBCT's battalion's engineer component relative 
to the IBCT, and to embedding civil affairs and psychological 
operations units. If necessary, the SCBCT could also be augmented with 
(or supported by) quick-reaction-force squadrons, which could be drawn 
from Stryker Brigade Combat Teams (SBCTs) or Heavy Brigade Combat Teams 
(HBCTs). Depending upon the contingency, SCBCTs could also be augmented 
by weapons of mass destruction rapid-response forces, military advisory 
teams, and air and missile defense units. Soldiers serving in SCBCTs 
would also be expected to spend most of their troop time in these 
brigades, although they should serve at least one and perhaps two tours 
in other units (e.g., IBCTs, HBCTs, SBCTs, Airborne or Air Assault 
Brigades, or SOF units) oriented more heavily on traditional, or 
conventional operations. This will enable these soldiers to reorient 
their SCBCT units more effectively should they be needed to support a 
surge at the high end of the conflict spectrum as a follow-on force 
behind the HBCTs.

          THE DECLINE IN QUALITY OF THE NCO AND OFFICER CORPS

    Irregular warfare demands will require a higher density of officers 
and noncommissioned officers than exists in the current force to 
support training and advisory missions, and to fill out CORDS units, 
and perhaps SCBCTs as well. Yet the Army has been experiencing a 
decline in quality of its officer and noncommissioned officer corps. 
NCOs mentor junior enlisted soldiers in soldier skills and leadership, 
setting an example for them and providing an indispensable link between 
officers and their troops. For this reason the NCOs are often referred 
to as the ``backbone'' of the Army. The NCOs' importance is clearly 
seen in the institutional crisis that confronted the Army during the 
Vietnam War when the Service found itself compelled to adopt 
accelerated promotions to fill shortages in the NCO ranks. The 
widespread promotion of enlisted soldiers (often referred to as shake-
and-bake sergeants) unprepared to handle NCO responsibilities played a 
major role in the breakdown in order, discipline, and unit 
effectiveness during that war.
    There are signs of the same phenomenon today. In 2005 the Army 
began automatically promoting enlisted personnel in the rank of E-4 to 
E-5 (sergeant), based solely on the soldiers' time in service, without 
requiring them to appear before a promotion board. In April 2008 the 
policy was extended to include promotions from E-5 to E-6 (staff 
sergeant). Although a soldier's name can be removed from consideration 
by his or her commander, each month the soldier's name is automatically 
placed back on the promotion list.\6\ The Army was short over 1,500 
sergeants when the policy went into effect. Since then, the shortage 
has been reduced by over 70 percent; but numbers do not reveal 
quality--or lack thereof.\7\
---------------------------------------------------------------------------
    \6\ While a soldier's commanding officer can remove his or her name 
from the promotion list, there are pressures at work that discourage 
this. Failure to advance a soldier to NCO rank could make the soldier 
less willing to re-enlist. It could also hurt unit morale if other 
units in the same organization (e.g., other companies in a battalion) 
are promoting soldiers as they hit their time-in-service points, but 
one unit is not. Failure to promote, which results not only in an 
increase in rank but in pay and status, can also be seen by soldiers as 
a social issue, in terms of how a soldier is viewed in his or her 
community, and the level of support they can provide to their family.
    \7\ Bill Sasser, ``Strained by War, U.S. Army Promotes Unqualified 
Soldiers,'' July 30, 2008, accessed at http://www.salon.com/news/
feature/2008/07/30/sergeants/index.html?source=rss&aim =/news/feature, 
on August 29, 2008.
---------------------------------------------------------------------------
    The shortage also finds the Army increasing the number of 
involuntary extensions of duty--the ``stop-loss'' policy. The number of 
soldiers affected by the stop-loss increased by 43 percent between 2007 
and 2008. Revealingly, nearly half of those affected by the stop-loss 
are NCOs. Army leaders believe the program will have to be extended at 
least through 2009.\8\ Fortunately, this practice seems to be coming to 
an end. However, as the Army suffers from a shortage of junior officers 
as well, many enlisted personnel with high potential are being diverted 
into Office Candidate School, further diluting enlisted leadership 
quality. This situation will only be exacerbated by the planned 65,000 
increase in the Army's end strength.
---------------------------------------------------------------------------
    \8\ Tom Vanden Brook, ``More Forced to Stay in Army,'' USA Today, 
April 22, 2008, p. 1; and Pauline Jelinek, ``General: Army Will Need 
`Stop-Loss' Through 2009,'' Houston Chronicle, April 22, 2008.
---------------------------------------------------------------------------
    Nor is the problem limited to junior NCOs. An Army study of 
soldiers' mental health found that 27 percent of NCOs on their third or 
fourth combat tour exhibited post-traumatic stress disorder symptoms, 
vice 18.5 percent of those who had completed their second tour, and 12 
percent of those who finished their first tour. The Army study found 
that NCOs who had served multiple deployments reported ``low morale, 
more mental health problems and more stress-related work problems.'' 
\9\
---------------------------------------------------------------------------
    \9\ Thom Shanker, ``Army Worried By Rising Stress of Return Tours 
to Iraq,'' New York Times, April 6, 2008, p. A1.
---------------------------------------------------------------------------
    The Army's problems extend to the officer corps as well. In 2003, 
roughly 8 percent of the Army's officers with between 4 and 9 years of 
experience left the Service. Three years later, the attrition rate had 
jumped to 13 percent. Of the nearly 1,000 cadets from the West Point 
class of 2002, 58 percent are no longer on active duty.\10\ An effort 
in the fall of 2007 to entice 14,000 captains to extend their 
commissions fell short by roughly 1,300.\11\ Making matters worse, the 
Army will need another 6,000 captains as it expands by 65,000 soldiers 
and 6 new BCTs and their associated supporting elements.\12\ There is a 
projected shortfall of roughly 3,000 captains and majors until at least 
2013, with the Army counting only about half the senior captains that 
it needs.\13\
---------------------------------------------------------------------------
    \10\ Andrew Tilghman, ``The Army's Other Crisis,'' Crisis,'' 
Washington Monthly, accessed at http://www2.washingtonmonthly.com/
features/2007/0712.tilghman.html, on September 8, 2008.
    \11\ Tom Vanden Brook, ``Deployments Strain Army Recruiting, 
Retention,'' USA Today, p. 6.
    \12\ Bryan Bender, ``Military Scrambles to Retain Troops,'' Boston 
Globe, March 7, 2008.
    \13\ Andrew Tilghman, ``The Army's Other Crisis,'' Crisis,'' 
Washington Monthly, accessed at http://www2.washingtonmonthly.com/
features/2007/0712.tilghman.html, on September 8, 2008.
---------------------------------------------------------------------------
    An increasing percentage of the Army's new officers, however, are 
not being commissioned from the traditional sources of West Point and 
Reserve Officers Training Corps programs, which supply recruits fresh 
from college. Rather, the Army has been increasingly compelled to pull 
soldiers, most of whom have not graduated college, from the ranks and 
send them to Officer Candidate School (OCS). The number of OCS 
graduates has grown dramatically since the late 1990s, rising from 
roughly 400 a year to over 1,500 a year, or more than the graduating 
class at West Point.\14\ Again, as with the NCO corps, as officer 
quality has declined, promotion rates have increased. Instead of the 
traditional promotion rates of 70 to 80 percent of eligible officers to 
major, now over 98 percent of eligible captains are promoted to 
major.\15\
---------------------------------------------------------------------------
    \14\ Idem.
    \15\ Idem.
---------------------------------------------------------------------------
    These trends are worrisome, especially for an Army that intends to 
place greater demands on its soldiers and their leaders to be highly 
proficient at irregular warfare while also mastering the complex battle 
networks and advanced equipment that comprises its Future Combat 
Systems.

                    REBALANCING THE FORCE STRUCTURE

    What changes in the Army's force structure and program would be 
necessary to field the ``Two-Surge'' Force? The following 
recommendations are provided for consideration. While these 
recommendations might be further refined through more detailed analysis 
than is practical here, I am confident that they represent a 
significant improvement over the Army's current approach. It is assumed 
that force structure modifications will be completed at the same time 
as the Army's planned completion date for the Modular Force, in fiscal 
year 2013. At that time, it is also assumed that overall Army 
requirements for Afghanistan and Iraq will be significantly reduced 
from the levels reached during the Surge in Iraq, perhaps by half.
    The Army must rebalance its force structure to enable persistent 
support for Phase O stability operations, to include building partner 
capacity where needed. This requires converting 15 Army IBCTs to the 
SCBCT configuration described above, as well as 15 Army National Guard 
(ARNG) IBCTs to an SCBCT configuration. Given a 3:1 rotation rate for 
the Active component, and a 6:1 rate for the Reserve component the 
force generation process should be capable of fielding 7\1/2\ SCBCTs on 
a sustained basis. In Phase O operations, these BCTs would typically 
operate in small force packages conducting a range of stability 
operations missions, to include building partner capacity. In the event 
of a major stability operations contingency, the Army would have a 
force of 30 brigades to draw upon for surge operations for up to 12 to 
15 months, to enable the Army's other wing to reorient itself to 
sustain the initial surge and to build up partner capacity within the 
threatened State and among allies and partners, as necessary.

                                  The Full-Spectrum Force and Dual-Surge Force
----------------------------------------------------------------------------------------------------------------
                                                                   Modular ``Full-       Modular ``Dual-Surge''
                            AC/RC                                 Spectrum'' Force                Force
----------------------------------------------------------------------------------------------------------------
HBCTs.......................................................                     19/7                      13/9
SBCTs.......................................................                      6/1                       6/1
IBCTs.......................................................                    23/20                       8/0
SC BCTs.....................................................                      0/0                     15/15
                                                             ---------------------------------------------------
  Total.....................................................                    48/28                     42/25
----------------------------------------------------------------------------------------------------------------
Source: Department of the Army, CSBA.

    Should the Army be confronted with an irregular force capable of 
posing a hybrid warfare threat, HBCT elements (and, perhaps eventually, 
FCS BCTs) might be deployed as part of the initial surge force. The 
stability operations surge force could also be supported by the 4 Army 
airborne brigades of the 82nd Airborne Division, as well as the 4 
brigades of the 101st Airborne Division (Air Assault) and the 6 middle-
weight Stryker brigades, for a total of 14 BCTs. To this might be added 
the ARNG's single Stryker BCT.
    The Army's heavy force oriented primarily on conventional 
operations would comprise 12 HBCTs, perhaps eventually migrating to 12 
FCS BCTS, and an armored cavalry regiment, along with 9 National Guard 
HBCTs (an increase of 2 HBCTs over the current force). This would 
provide the Army with a heavy surge force of up to 22 HBCTs, with 6 AC 
SBCTs and 1 ARNG SBCT available if needed, along with the 4 brigades of 
the 101st, for a total of 33 heavy or middle-weight brigades, far in 
excess of what is likely to be required for the MCO portion of regime 
change operations against a nuclear rogue state like Iran, assuming its 
anti-access/area-denial (A2/AD) \16\ defenses can be reduced to a level 
that would permit the introduction of large U.S. ground combat forces.
---------------------------------------------------------------------------
    \16\ ``Anti-access/area-denial'' (A2/AD) capabilities are those 
designed to delay the arrival of U.S. forces, to keep them beyond their 
effective range, and to defeat them if they try to penetrate the denial 
zone. While many military forces and capabilities can contribute to the 
A2/AD mission, those most closely associated with it include: ballistic 
and cruise missiles that can strike forward air bases and massed troop 
concentrations; submarines; anti-ship cruise missiles (ASCMs); land-
based anti-ship systems (e.g., strike aircraft, ASCMs, and ballistic 
missiles that target carrier strike groups); and counter-command, 
control, communications, computers, intelligence, surveillance and 
reconnaissance (C\4\ISR) capabilities, such as anti-satellite weapons, 
cyber weapons, and electromagnetic pulse generators designed to 
fracture U.S. battle networks.
---------------------------------------------------------------------------
    The above recommendations result in an overall force structure of 
42 BCTs in the Active component (AC), and 25 BCTs in the Reserve 
component (RC), for a total of 67 BCTs. This represents a reduction in 
the Army's Modular Force goal of 48 AC BCTs and 28 RC BCTs. This 
reduction in the level of BCTs (which would be matched by a 
corresponding reduction in support brigades) offers several important 
benefits.
    First, by reducing the need to generate large numbers of new 
officers and NCOs, it stems the highly corrosive decline in the quality 
of the Army's leadership. At the same time, it enables the Army to 
restock the ``institutional Army''--the Services schools, staffs, 
etc.--that enable officers and NCOs to receive the training and 
education needed to enable a surge of trainers and advisors when 
needed, as opposed to pulling from deployed brigades to fill the need. 
Along these lines, doctrine for advisors and trainers needs to be 
developed, along with a school to ensure they receive the proper 
training.
    Second, reduction of six AC BCTs and two RC BCTs along with 
programmed new support brigades also mitigates the erosion in the 
quality of the officer and NCO corps stemming from the decision to 
increase dramatically the size of the U.S. military's Special 
Operations Forces. This has created a whipsaw effect within the Army, 
as it sees the quality of its recruits declining while the best of 
those who remain in the Service are being recruited by the Special 
Forces.
    Third, a smaller force structure also reduces the pressure on 
manpower that has led the Army to lower its recruiting standards. 
Finally, it also has a beneficial effect on the Army's budget: fewer 
soldiers reduces strain on the personnel accounts, while fewer brigades 
takes some of the stress of the procurement accounts, since there are 
not as many of them requiring updated equipment.\17\
---------------------------------------------------------------------------
    \17\ It is estimated that the addition of 65,000 AC soldiers and 
27,000 marines will incur an annual sustained cost of $13-14 billion 
per year.
---------------------------------------------------------------------------
    The revised force structure is also more evenly weighted between 
the Active and Reserve components. Current plans call for an Active 
component of 19 HBCTs out of a total of 48 BCTs, or approximately 40 
percent of the force. Yet the Reserve component would field only 7 
HBCTs out of its planned 28, or 25 percent of the force. For an Army 
waging persistent irregular conflict, it makes little sense to have the 
Active component, whose BCTs can be deployed on a much more frequent 
basis than the Reserve component, be the principal hedge force for 
conventional warfare. In the Dual-Surge Army proposed here, roughly a 
third of the RC force would be comprised of heavy brigades, while HBCTs 
represent slightly less than a third of the AC.
    To be sure, there are risks involved in reducing the Army's 
projected force structure. However, the risks of continuing the decline 
in officer and NCO quality; accepting a lack of capacity to support the 
defense strategy's focus on building up the capabilities of allies and 
partners; and promoting the flawed assumption that a general purpose 
Army that remains overly weighted toward conventional warfare can 
quickly and effectively shift to conduct irregular warfare operations 
far outweigh the risks associated with the Dual-Surge Army recommended 
here.

                EQUIPPING THE FORCE--RETHINKING THE FCS

    There is also the matter of equipping the force. The Army's 
centerpiece modernization program, the Future Combat Systems, is really 
a cluster of 14 systems of various types. These systems will rely 
heavily on being linked as part of an overarching battle network that 
ties them together with individual soldiers and the U.S. military's 
joint battle network. While revolutionary in its concept, the FCS 
program may not be executable at an acceptable cost, given the many 
technical challenges confronting the program. Moreover, it may not be 
possible to create the battle network as currently envisioned by the 
Army, or to create it within the timeframe projected. If this proves to 
be the case, the Army needs to have a plan to harvest as many FCS 
capabilities as possible while identifying an alternative modernization 
path. Thus far the Army is moving FCS components into the current force 
as they become available. However, to date these capabilities are 
relatively modest compared to the program's stated goals and the level 
of resources being invested. A thorough program review is warranted 
before making a commitment to continuing the FCS program in its current 
form.
    What might an alternative modernization path look like? In addition 
to harvesting as much of the FCS program as possible, such as the 
unmanned aerial systems, unattended ground sensors, and ground 
robotics, the Army would need to experiment with various options for 
building a battle network that is feasible, affordable, and that 
enables a major boost in military effectiveness across the entire 
conflict spectrum. Since the effectiveness of the combat systems 
associated with the network is heavily dependent upon the network, 
final decisions on the major combat systems' designs should be held off 
until the network's form and capability are well understood. In the 
interim, the Army needs to continue recapitalizing the existing force, 
while engaging in selective modernization only when necessary.
 addressing the guided rockets, artillery, mortors, and missiles threat
    The Army also needs to move energetically in developing air and 
missile defense capabilities to address the nascent Guided Rockets, 
Artillery, Mortors, and Missiles (G-RAMM) \18\ threat before it matures 
and the Service finds itself engaged in another round of reactive 
transformation, as it has experienced in Afghanistan and Iraq. The 
challenge here is not only to develop effective capabilities, but 
capabilities that are cost-effective. At present, given the high cost 
of kinetic interceptors, the most promising developments in this area 
are in the field of solid-state lasers (SSLs). A substantially greater 
effort should be devoted to translating this rapidly-progressing 
potential into fielded military capability.
---------------------------------------------------------------------------
    \18\ G-RAMM refers to guided rockets, artillery, mortars and 
missiles. In the Second Lebanon War, Hezbollah fired some 4,000 RAMM 
projectiles into Israel, causing several hundred thousand Israelis to 
be evacuated from their homes. The Israelis also shut down their oil 
refineries and distribution system for a time, out of concern that a 
lucky hit would cause untold damage. The problem will only become more 
acute as irregular forces gain access to guided weaponry. (Hezbollah 
fired guided antiship cruise missiles at an Israeli patrol boat, 
damaging it. Hezbollah also employed several unmanned aerial vehicles 
during the conflict.)
---------------------------------------------------------------------------
              MAINTAINING AN EQUIPMENT AND PRODUCTION BASE

    The era of persistent irregular warfare presents the Army with the 
challenge of training and equipping indigenous and partner forces 
engaged in stability operations on a major scale. The Army must also be 
prepared to replenish damaged or destroyed equipment of Army units 
engaged in stability operations. Given the importance of preventive 
action and exploiting the opportunities presented by the ``golden 
hour,'' \19\ the equipment to support a sustained surge in stability 
operations must be available to the combatant commands on short notice, 
and not cobbled together on the fly. Thus equipment stocks to outfit 
host-nation forces being trained should be stockpiled, similar to the 
Prepositioning of Materiel Configured in Unit Sets (POMCUS) \20\ 
equipment that was positioned to support U.S. forces during the Cold 
War. A warm production base must be capable of surging equipment to 
replace those items lost during operations.
---------------------------------------------------------------------------
    \19\ The ``golden hour'' is the brief period after the introduction 
of U.S. troops ``in which we enjoy the forbearance of the host-nation 
populace. The military instrument, with its unique expeditionary 
capabilities, is the sole U.S. agency with the ability to affect the 
golden hour before the hourglass tips'' and the local populace becomes 
disaffected. An Army called upon to surge BCTs to exploit the golden 
hour is not likely to have months to restructure and train them to a 
high level of expertise in stability operations. James Stephenson, 
Losing the Golden Hour, (Washington, DC: Potomac Press, 2007), p. 98.
    \20\ The term ``POMCUS'' stands for Prepositioning of Materiel 
Configured in Unit Sets. During the Cold War large quantities of 
equipment were prepositioned in Europe to facilitate the rapid 
reinforcement of U.S. forces there. By having a unit's equipment 
prepositioned, and thus not having to transport it from the United 
States, the Army's airlift and sealift requirements were greatly 
reduced. The Army eventually prepositioned roughly 4 divisions' (or 12 
brigades') worth of equipment in Western Europe. Colonel (Ret.) Gregory 
Fontenot, LTC E.J. Degen, and LTC David Tohn, On Point: The United 
States Army in Operation Iraqi Freedom, p. 40, accessed at http://
books.google.com/books?id=7x8U4t-oJvcC&pg=PA40&lpg=PA40&dq=POMCUS+Cold+ 
War&source=web&ots=ERAs40Gn8o&sig=f3YuMfJ4OujYdk2 
gRJFAPmgfqbg&hl=en&sa=X&oi= book--result&resnum=10&ct=result#PPR16, M1, 
on September 29, 2008.
---------------------------------------------------------------------------
                        CONCLUDING OBSERVATIONS

    The Army's leadership has rightly concluded that it needs a force 
capable of performing across the full spectrum of conflict at a high 
level of effectiveness. But in its attempts to become equally effective 
across a range of conflict types, it risks becoming marginally 
competent in many tasks, and highly effective at none. In attempting to 
increase the size of the Army to field forces large enough to deal with 
a range of contingencies, the Service risks becoming incapable of 
creating the needed scale by building up the capabilities of America's 
allies and partners, a key part of the defense strategy. It also risks 
a catastrophic leadership failure of a kind not seen since the late 
stages of the Vietnam War, a failure that took the Army over a decade 
to repair.
    Squaring this difficult circle will require the Army to put more 
faith in the joint force's ability to dominate conflict at the higher 
end of the conflict spectrum, and resisting the temptation to return to 
a general-purpose force posture by another name (i.e., the full-
spectrum force). The Dual-Surge force will allow the Army to truly 
orient itself on fielding forces that are highly competent across the 
spectrum of conflict by fielding forces focused on irregular warfare on 
a scale and level of effectiveness comparable to its world-class 
conventional forces.

    Senator Lieberman. Thank you, Dr. Krepinevich. You got us 
off to a good start.
    Our next witness is Tom Donnelly, who I will describe as a 
recovering journalist. He was a professional staff member of 
the House Armed Services Committee, editor of the Armed Forces 
Journal, and now is a resident fellow at the American 
Enterprise Institute for Public Policy Research here in 
Washington.
    Mr. Donnelly and co-author Fred Kagan recently published 
the study, ``Ground Truth, the Future of U.S. Land Power.'' So 
he is again ready to be a helpful witness today. Thanks for 
being here.

    STATEMENT OF THOMAS DONNELLY, RESIDENT FELLOW, AMERICAN 
        ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH

    Mr. Donnelly. Thank you, Mr. Chairman. At least you didn't 
describe me as a recovering House guy. I have a lot of 
persistent diseases. [Laughter.]
    Senator Lieberman. I'm going to hold my tongue at this 
point. [Laughter.]
    Mr. Donnelly. I see very much a similar world to the world 
that Andy sees. It's always the case in these circumstances 
where the opening testimony becomes the standard and everything 
else becomes a commentary upon it.
    So I see very much a similar world to the world that Andy 
sees, but I think Andy goes wrong, in general terms and in 
crude terms, by trying to fit the strategic requirement to land 
forces, to the size of the force and the shape of the force, 
rather than sizing the force and shaping the force based upon 
America's strategic goals in the world.
    I would also say that those strategic goals have been 
remarkably consistent and are much clearer than people have 
almost been willing to accept over the last decade, in this 
regard. Administrations of both parties have wanted to preserve 
American leadership in a global sense and have taken the 
necessary steps, not often with perfect foresight or with 
perfect understanding, to maintain that position.
    So I think we can see in that regard that the future for 
American land forces is not all that dissimilar from our recent 
post-Cold War experience or particularly from our post-
September 11 experience. The so-called long war that we are now 
engaged in in the Middle East, meaning the attempt to build a 
greater Middle East, an Islamic world that we and the rest of 
the world can live with, is a mission that's been ongoing since 
the establishment of U.S. Central Command a generation ago. If 
we look at the operation of U.S. forces in that region over the 
course of time it's been very much a growth industry, and it's 
transitioned from a maritime and aerospace presence to an 
onshore land presence.
    So we may not be able to tell precisely where our forces 
will be operating and what the tactical nature of the 
engagement will be for the future, but I think we delude 
ourselves if we don't think that the outcome of this war is 
critical to us and that the primary instrument that we have to 
achieve that success is our land forces, our Army and Marine 
Corps. We have come ashore, so to speak, in the region and if 
we withdraw that will be a huge setback for the United States.
    Therefore, we do have enough information to conduct 
intelligent force planning and in particular land force 
planning going forward. Now, my testimony describes the general 
characteristics of the land force that we need, but in the 
interest of brevity and in response to some of the subjects 
that have been raised, I just want to make a couple of more 
precise remarks.
    I think it's worth beginning first of all with the size of 
the force. Numbers really matter. If you want to have a force 
that's versatile, that's flexible, that's genuinely expansible, 
where the Reserve components are a Strategic Reserve, not just 
a part of the operational conveyor belt, not just a substitute 
for the Active Force that we already have, the key to solving 
that puzzle is expanding the size of the Active Force and 
particularly the size of the Army, because the Army is 
America's long war force, meaning conducting sustained 
operations.
    The fact that we have an insufficient Army not only has 
consequences for the Reserve components, but it has 
consequences for the Marine Corps. We have transformed, 
particularly in the last 5 years, the Marine Corps from being 
an expeditionary force, a force in readiness, as they would 
say, to yet another link in this conveyor belt of deployments 
to Iraq and Afghanistan. If we want the Marines to do the 
things that are uniquely Marine, again the answer in my mind is 
to have enough Army to be able to do what we need to do on a 
day-in, day-out basis.
    So 547,000 Active Duty soldiers is not enough. We've been 
mobilizing more than 100,000 Reserve and National Guardsmen 
every day since September 11 and so we have a pretty good idea 
of what the requirement going forward to operate at this pace 
is. I for one think it's a rebuttable proposition that we will 
not continue to operate at this pace going forward.
    So when you put really ballpark numbers on it or do the 
kind of troop-to-task analysis that force planners do, the 
answer should be to have an Active Duty Army that's somewhere 
about the size that it was at the end of the Cold War, that is 
about 780,000. That was the size of the Active Duty Army in 
1991, before the post-Cold War drawdown. We had maintained a 
force of that size ever since the early 1980s, when the Army 
chose, rather than expanding itself when the Reagan buildup 
began, to do accelerated modernization, resulting in the big 
five programs that are still the main front-line fighting 
systems of the U.S. Army today.
    So we ought to return to something like that level, which 
we maintained for a generation back then. That would 
essentially make the size of America's land forces in total, 
meaning Active Army and Marine Corps, something like a million 
people. That would be one-third of 1 percent of the American 
population, not something that's not sustainable, but a force 
of an adequate size to maintain the kind of pace of operations 
that we have seen persistently since September 11.
    A couple of quick final points because I know we're pressed 
for time. I regard our experience as not being just simply one 
of irregular warfare. But the term hybrid warfare, and 
particularly when you take the experience as a whole and add in 
things like the Israeli experience in southern Lebanon in 2006, 
essentially means that all aspects of land forces have been 
stressed, I would say to the maximum extent that it's 
reasonable to imagine.
    So the need for mounted forces, be they middleweight forces 
like Stryker brigades or Marine mounted forces, and even heavy 
forces have performed remarkably well in a variety of roles. So 
as we go forward I would certainly agree with Andy that as the 
Army grows I would prefer to buy lighter forces and more 
middleweight, Stryker-like forces, although FCS would make for 
lighter units.
    So in the shape of the correct size land force, I would 
agree that the balance between very heavy and lighter forces 
needs to be adjusted. But again, I think the first question is 
whether the force is large enough.
    A final point about size is that we expect our land forces, 
as Andy suggested, to do many more non-combat kinds of missions 
and tasks than we thought they were going to be required to do 
a decade ago. That means that we do have to have people who are 
trained advisers to do the partnership role. It also means that 
we need our leaders to go to school, our NCOs to go to basic, 
advanced, and sergeant major academy courses, and our officers 
to continue to go to staff college and war college, and in fact 
to make the rigor of our professional military education even 
higher than it has been.
    So we need to have a force that's as well-educated, if not 
better educated, that has time to participate in the kind of 
quality of American life that all American citizens expect. 
That means they can't be getting off a plane for Iraq and then 
boarding another one for Afghanistan or wherever else they're 
going to go.
    So all these things, all the qualities that we want to 
inculcate and maintain in the force, are dependent on having a 
force that's of adequate size. What we have done over the last 
5 years is use a too small force too often, and we are not 
going to walk away from the mission without paying a huge 
price. So the question becomes are we willing to pay the price 
to execute the mission successfully.
    I want to conclude with a few remarks about FCS because I 
regard that as a program that is profoundly misunderstood, in 
no small measure because the Army doesn't do a very good job of 
explaining what the requirement is. I believe that this will 
bring much greater flexibility to the force. We will have 
smaller, tracked combat vehicles that are more applicable to a 
wider variety of missions. They will be much more capable and 
adaptable to the kind of environment that we find ourselves in.
    That means they will have not only lighter chassis, but 
chassis that are ballistically better protected against 
improvised explosive devices and threats that attack them not 
only from the direct front, the way the M-1 and Bradley are 
designed to do, but from underneath, from the top, and from the 
sides, as modern weapons suggest.
    Networking is an essential feature of a small force in an 
irregular warfare environment or a hybrid warfare environment.
    Finally, there's a whole host of things that are just 
necessary to do because simply extending the life of our 
current vehicles wouldn't solve some of the problems that we 
face. Just to take one final example, FCS will have an engine 
that generates much more electricity than the current fleet of 
vehicles does. Soldiers now have to turn off the many computers 
and widgets and electronic devices that are part of their 
world, that are part of the way that they fight and operate, 
because they don't have enough electricity to keep them on all 
the time.
    So a vehicle that not only generates more electrical power 
on board, but can power many other kinds of devices, 
particularly the individual soldier devices that will be so 
essential to maintaining the effectiveness of dismounted 
infantrymen and other individual soldiers in a complex 
irregular warfare environment, is absolutely essential.
    I could certainly continue in this vein. I look forward to 
answering your questions. But in my mind the question is both 
simpler and harder than many people are willing to acknowledge. 
I don't believe that we can reform or find a clever solution to 
our problems that will be sufficient. We simply need to have a 
larger and more modern land force, and FCS is probably the best 
alternative. To go back to a different form of modernization 
that modernizes in a stovepiped, individual platform way would 
be to repeat the mistakes of the past.
    [The prepared statement of Mr. Donnelly follows:]

                 Prepared Statement by Thomas Donnelly

    I am grateful for the opportunity to appear before the subcommittee 
today to discuss the topic I would regard as the central issue in 
American defense planning: the requirements for U.S. land forces. Our 
soldiers, marines, and Special Operations Forces have borne the brunt 
of the fighting and suffered the majority of the casualties during the 
post-September 11 era. They have also won remarkable victories. But, as 
Defense Secretary Donald Rumsfeld once ruefully remarked, we went to 
war with the Army we had, not the Army we would have liked to have. Six 
years after the invasion of Iraq and more than seven after the invasion 
of Afghanistan, we still do not have the land forces we need. My 
testimony is intended to provide the committee with a clear view of 
what those needs are and will be for the foreseeable future. My 
arguments have been developed more fully in the book Ground Truth: The 
Future of U.S. Land Power, written with my American Enterprise 
Institute colleague Fred Kagan and published last year.
    Further, we need to arrive at such an understanding very rapidly. 
President Obama has proposed a budget plan that will profoundly alter 
the size and, even more critically, the purposes of American 
government. In particular, both by reducing the level of defense 
spending and increasing the amounts devoted to social entitlements, 
domestic discretionary spending, and to servicing the national debt, it 
will reduce that nation's ability to meet our defense needs. Even 
though we have yet to see the full programmatic implications of this 
budget, it is obvious that there will be significant cuts. We can also 
see a new set of force-planning constructs on the horizon, in the form 
of an expedited Quadrennial Defense Review, which the administration 
has announced it intends to complete by the end of this summer. To make 
the decision before us, we need to think our way through four basic 
questions: What are the needs for land forces in American strategy? 
What kind of wars will our land forces fight? How should we size and 
shape our land forces to conduct these operations? What are the costs 
of fielding the land forces we need?

                THE STRATEGIC REQUIREMENT FOR LAND POWER
 
   Force planning without a large understanding of American 
geopolitical purposes and strategy is an empty exercise. Without this 
measuring stick, there is no way to tell what kinds of forces are more 
useful than others. So before outlining our land force requirements, 
let me quickly review the consistent ends and ways of U.S. strategy in 
recent decades, through administrations of both parties. Throughout the 
post-Cold War period, U.S. Presidents have made a strong commitment to 
preserving American global leadership: that is, the maintenance of a 
liberal international order that has proven, all things considered, to 
be a framework that has permitted growing stability, liberty and 
prosperity. President Obama has reaffirmed this commitment, and further 
has rightly observed that the continued centrality of the United States 
in the international system will be a key factor in any economic 
recovery.
    Beyond rhetoric, American international leadership has a number of 
geopolitical, economic, and security corollaries. Indeed, our security 
role is the bedrock of today's global order; conversely, absent the 
organizing function played by the United States, the world would most 
likely devolve into a competition between various blocs of states, and 
non-state actors--terror groups, criminal syndicates and the like--
would find themselves in constant conflict. The dangers of failing 
states, or, as John Quincy Adams called them, derelict states, would be 
exponentially greater and the world's ability to address these dangers 
so much weaker.
    In summary terms, America's ability to maintain the current global 
order depends upon fulfilling two essential tasks: preserving a 
favorable balance of power among nation-states, and preserving the 
integrity of the state system from the challenges of non-state actors. 
In an era where nuclear proliferation and other forms of technological 
diffusion are providing non-state groups with destructive capabilities 
and reach heretofore reserved to only the greatest powers, preserving 
the international political order is no small task.
    Correspondingly, there are two prime directives for U.S. military 
forces. First, we must develop the situation with regard to the 
increasing strength and capabilities of the Chinese People's Liberation 
Army (PLA). I use the term ``develop the situation'' intentionally, to 
make it clear that we must act, and exercise some initiative, to ensure 
that the PLA does not become a strategic threat to U.S. interests. This 
mission is the first order of business for American naval, air, and 
space forces, as well as those military capabilities designed to 
operate in the electromagnetic spectrum, but is hardly the primary 
shaper of U.S. land forces. Second, and this is most critical for U.S. 
land forces, is the need to continue to prosecute the long war in the 
greater Middle East. To be sure, there are a variety of scenarios 
across these two broad mission sets that might call for highly 
integrated joint forces, but the greater likelihood is that the U.S. 
military will continue to develop a new, looser kind of jointness in 
response to emerging battlefield realities.

                            A LONG-WAR FORCE

    America's interests in the Muslim world are as old as the republic, 
and from the first--on the shores of Tripoli--U.S. land forces have 
been an important element in defense of those interests. But it was not 
until the promulgation of the Carter Doctrine in 1979 and the formation 
of the Rapid Deployment Joint Task Force, the precursor of today's U.S. 
Central Command (CENTCOM), that we saw for ourselves a permanent 
mission in the region. If one were to plot the deployments of American 
military forces to the CENTCOM region since that time, what would 
become apparent is that we have moved generally from a maritime posture 
of ``offshore balancing'' to an on-shore, land-based posture intended 
not simply to work through local potentates and autocrats but to 
encourage a more stable and representative order throughout the region. 
While our engagement still is centered on the Persian Gulf region--the 
strategic epicenter--it extends from West Africa to Southeast Asia. 
This is, truly, America's ``continental commitment'' in the 21st 
century.
    The range of missions conducted by U.S. land forces has varied 
immensely over time and promises to be equally varied in the future. 
Even in the hectic years since the September 11 attacks, the number and 
kind of land forces operations have run the gamut from conventional 
blitzkrieg--and we should never forget how remarkably and surprisingly 
successful the initial invasions of Afghanistan and Iraq proved to be--
to persistent irregular warfare, partner-building operations of all 
sorts, and a panoply of reconstruction and stabilization efforts. 
Indeed, it would be harder to invent a wider diversity of missions. In 
Ground Truth, we considered a number of ``case studies'' that 
catalogued the spectrum of these operations, looking also at the 
Israeli army's experience in southern Lebanon in the summer of 2006. 
Suffice it to say that modern land warfare is a thoroughly exacting art 
and science. It is a source of wonder that American soldiers and 
marines have conducted these missions as well as they have; in 
retrospect and taken altogether, what is remarkable is not that there 
have been moments of confusion and near-defeat, but that the United 
States should find itself in such an advantageous strategic position 
today.
    Alas, this surprisingly good result is not the product of 
intentional force-planning, but the residue of past, Cold War 
investments; of improvised procurements in emergency, supplemental 
appropriations; and, most tellingly, of nick-of-time innovations by 
soldiers and Marines on the battlefield. The heroism of Americans at 
war is a very reliable constant, but it is not a plan.
    Nor is it a plan to pretend that the pace of operations in the 
post-September 11 world is an extraordinary anomaly or simply the 
product of Bush administration folly; again, the larger pattern of 
commitments and operations during the years since CENTCOM was 
established reflect the continuity of American strategy. While numbers 
of troops deployed or the organization of forces in the field may 
fluctuate with the conduct of particular campaigns, we must accept the 
plain fact that the posture of U.S. forces in this part of the world 
has reached a new plateau, and that plateau stretches a long way into 
the future--certainly far beyond the planning horizons of the 
Department of Defense, the U.S. Army and Marine Corps. At this point, 
to repeat the mistakes of the Bush administration, to delude ourselves 
that we will return to a more comfortable status quo, would be to 
transform the unintentional failures of strategic imagination into an 
intentional, potentially catastrophic failure of strategic planning.
    We now know, within experimental error, the answer to the timeless 
question of force-planning: how much is enough? For the past 5 years--
every minute, every hour, every day--we have fully an employed an 
active Army (that is, the baseline active Army plus national guardsmen 
and reservists called to active duty) of about 650,000 (of which 
100,000 or more are the mobilized reservists) and the entire U.S. 
Marine Corps of about 200,000, or a total land force of about 850,000. 
That is a fact. There are two other facts: one is that this force is 
too small to eternally sustain the demands of the deployments; dwell 
times between rotations are too brief to fully reconstitute or train 
units and individuals or to fulfill the social and moral contract 
between the Nation and people in uniform. A second is that this force 
is also too small to mitigate the many risks of other long war 
missions, let alone the secondary land-force missions elsewhere across 
the globe.

                          WHAT KIND OF FORCE?

    Given the number and variety of missions confronting the U.S. 
military and the emerging nature of land war, it is apparent that U.S. 
land forces need not only to be more numerous but must also possess 
qualities other than the timely and devastating delivery of firepower. 
Recent realities have underscored the shortcomings of the movement for 
military transformation, with its imagining of ``rapid, decisive 
operations'' characterized by long-range, precision strikes. Indeed, 
history provides very few examples of a one-battle war. Conversely, we 
have only lately begun to apply our most advanced technologies to the 
problems of irregular warfare. Lethality is just one of a half dozen 
required attributes for future U.S. land forces--and it's not even the 
primary one.
    As might be expected, the primary attribute for victory in a long 
war will be sustainability. Presence matters. As David Galula, the 
French military officer and scholar whose writings have so helped 
American soldiers and Marines adapt to challenges in Iraq and 
Afghanistan wrote in his 1964 classic Counterinurgency Warfare: Theory 
and Practice: ``The static units are obviously those who know best the 
local population, the local problems. . , . It follows that when a 
mobile unit is sent to operate temporarily in an area, it must come 
under local command.'' Thus, the enthusiasm of recent years for 
strategic deployability has been misplaced. That is, we need The force-
generation models for both the Army and Marine Corps are not well 
suited to the demands of sustained presence.
    A second attribute required for U.S. land forces is the ability to 
gather, analyze, share, and act upon a flood of information; at its 
heart, the long war is largely about the struggle for and about 
information. The force-transformation ideal imagined that U.S. forces 
would automatically enjoy perfect situational awareness and dominant 
battlespace knowledge; by contrast, recent experience suggest that the 
fog of war is even thicker in the information realm than on the simply 
kinetic battlefield. Organizing, training and equipping our land forces 
to operate in opaque situations--where seemingly small-scale, tactical 
decisions can have great strategic consequences--is a necessity 
demanding more robust and flexible forces rather than the perfectly 
tailored forces previously thought desirable. In complex operations, 
perfectly designed forces are most likely to be designed perfectly 
wrongly.
    Firepower does still count for a lot, and arguably precision 
firepower is an even greater benefit in irregular than in conventional 
warfare. At the same time, firepower, like forces more generally, must 
be constantly present or available. The coordination of joint fires 
with land maneuver units is an incredible advantage to U.S. forces, but 
in thinking about future fire support requirements it is necessary to 
consider the global strategic requirements for the forces that supply 
that fire support, particularly air support and naval fire support. The 
presumption of the recent past--that joint fires will be everywhere and 
plentifully on call--is an uncertain proposition for the future, and it 
is worth reconsidering force-structure savings assumed in organic 
Marine and, especially, Army fire support.
    A fourth quality to stress in future land forces is leadership, 
beginning at the small-unit level but also including the quality of 
generalship. Dispersed and irregular operations demand quicker and 
better decisionmaking. As one veteran cavalry officer recently put it:

          The environment we faced required junior leaders to make 
        hundreds of independent decisions every day. The sheer volume 
        of information generated daily was staggering. Moreover, the 
        operations tempo was very high, requiring the execution of 
        dozens of missions simultaneously across the spectrum of 
        operations.

    The Marine Corps' idea of the strategic corporal is perhaps an 
exaggeration, but the underlying notion--that soldiers and marines are 
asked not simply to be competent tacticians but to exercise their 
judgments in many situations that are only vaguely military--has merit. 
In sum, military leaders must be more fully educated at a younger age, 
not simply trained.
    A fifth quality that should describe U.S. land forces for the 
future is partnership, as in the Pentagon's initiative, articulated in 
the last defense review, for building partnership capacity. As 
necessary as U.S. forces are for the many Long War missions they have 
been assigned, they are not sufficient; they must undertake a variety 
of efforts to build the capacity of the indigenous or allied forces 
with which we are fighting. While most attention in the recent past has 
been devoted to building the Iraqi and Afghan armies, there is a huge 
opportunity to improve the professionalism and effectiveness of other 
partners, not simply to react to new crises and conflicts, but to 
anticipate or prevent problems. The section in Ground Truth describing 
the recent U.S. role in the Philippines provides a snapshot about how 
this can be done well with very small forces, and the new U.S. Africa 
Command will have this partnership-building mission as its initial 
task. Moreover, figuring out how to do this without so disrupting the 
unit design, cohesion or effectiveness of U.S. ground combat units will 
be a challenge; creating a large-scale, standing advisory corps runs 
that risk.
    Finally, U.S. land forces must be genuinely expansible. We must 
understand that, while we can now better predict the future requirement 
for land power, there may well be situations where the demand exceeds 
the supply. Expanding the current Active-Duty Force would have the 
added benefit of returning the Reserve component into the truly 
strategic Reserve for which it, and particularly the National Guard, 
was designed. The Bush administration's decision to mobilize the Guard 
as an Operational Reserve--just a lesser cog in the deployment machine 
that so consumes today's force--was yet another penny-wise-but-pound-
foolish choice. The quality of expansibility, a traditional tenet of 
American force planning, has been sacrificed by default and without 
serious discussion as a result of the decision to fight the long war 
with a too small force.

                     THE COSTS: TIME, PEOPLE, MONEY

    Building the land forces we need will take the better part of a 
decade. The belated Bush administration plan for increasing the size of 
the Active Army and Marine Corps, just recently achieved, brings the 
total active land force to about 750,000, or still about 100,000 short 
of the day-to-day requirement; hence the continuing need to mobilize 
large numbers of guardsman and reservists. My recommendation would be 
to return the active land services to about the same size they were at 
the end of the Cold War: a little bit less than 800,000 soldiers and a 
little bit more than 200,000 marines, for a total of about 1 million. 
In a nation of 300 million Americans, that's a very and certainly 
achievable modest goal, and would return economic benefits at a time of 
relatively high unemployment. This ought to have been a provision in 
the recent stimulus legislation.
    Sizing the field force--the kid of force-sizing construct that has 
been the hallmark of recent defense reviews--should likewise be a 
relatively straightforward exercise. The first principle of land-force 
planning should be the need to conduct a sustained, large-scale 
stability campaign, as Iraq has been since the initial invasion and as 
Afghanistan, as the Obama administration shifts its strategic focus, is 
becoming. Such efforts routinely require on the order of 150,000 U.S. 
forces, up to 22 brigade-equivalents. The requirement in Afghanistan 
will be somewhat lower as long as significant European North Atlantic 
Treaty Organization (NATO) forces continue to at least patrol and 
occupy the Tajik and Uzbek provinces. This is neither a prediction that 
another such mission is on the horizon or an expression of any desire 
to undertake a new project of regime change, but it is a recognition 
that circumstances might make this necessary, and is a sound basis for 
force planning. A second force building-block would be a requirement to 
conduct at least two other economy-of-force stability operations, sized 
roughly as the U.S. element of the NATO Afghanistan mission has been--
that is, about 25,000 to 30,000 troops--during the years of maximum 
effort in Iraq. With a ``post-combat'' American posture in Iraq of 
35,000 to 50,000, it appears that the relative roles of the two mission 
of the recent past are about to flip; for planning purposes, the 
ability to do two economy-of-force missions--and at least one conducted 
entirely by Marine forces--at the same time makes sense. Finally, 
another simultaneous requirement is for multiple partnership missions. 
These can be quite substantial and long-running, as the story of 
Combined Joint Task Force-Horn of Africa reveals: it's employed almost 
1,000 troops form all Services under a two-star headquarters.
    A second field-force question is that of unit force structure and 
design. In general terms, the combination of budget shortfalls and 
transformation enthusiasm has resulted in a significant reduction in 
land force structures, most evident in the Army's design for modular 
brigades. In short, the Army has shrunk the size of its core ground 
maneuver unit from about 5,000 to about 3,500, and also dramatically 
cut back on the size of its divisions. The price has been paid in fire 
support, logistics and other forms of support, and each brigade has one 
fewer ground battalion. The result is that each brigade is less 
sustainable and less capable, with the further inevitable result that, 
when deployed, each brigade requires many additional enablers--though 
these are often different kinds of units than those that were 
previously eliminated--that return its strength to 5,000 or more. As we 
shall see when the details of the Afghanistan ``surge'' are made clear, 
the challenges of operating in austere and undeveloped environments 
require even more support troops. The shortage of support forces puts a 
correspondingly larger burden on Reserve component soldiers, who 
provide a disproportionate share of the support capabilities in the 
Army. Because the Army provides higher-level support to the Marines 
and, indeed, the Air Force, these support requirements are in fact much 
greater than they immediately appear. It makes no force-planning sense 
to continue to ignore these requirements.
    But perhaps the most willfully ignorant land-force planning 
assumption of the past decade has been the shortchanging of the 
services' institutional base, that part of the Army and Marine Corps 
that prepares the field force to fight. Again, the full story is a 
complex one, but suffice it to say that, in zealous pursuit of the 
highest possible tooth-to-tail ratio and a belief, especially strong 
during the Rumsfeld years, that the institutional base was unproductive 
overhead, that the long-term health of the U.S. land force 
establishment has been put at risk. Even with the recent growth in 
force size, the Army has just 11,400 soldiers on active duty for each 
one its brigade combat teams. A better-balanced force would be manned 
at a total of 13,500 troops per brigade or more; these extra people 
would allow for improved leadership development, better training, and a 
greater capacity to execute partnership-building missions. Finally, the 
post-Cold War years have seen an increasing imbalance between the 
Army--the main long war service designed for sustained land 
operations--and the Marine Corps--self-described as the expeditionary 
force in readiness for contingencies and crises. At the end of the Cold 
War, there were about four active-duty soldiers for every marine; today 
the ratio is 3-to-1. If the main mission of U.S. land forces is the 
long war, then we are building the wrong sort of force.
    Then there is the question of force modernization, weapons 
research, and procurement. While the Defense Department has been on an 
extended ``procurement holiday'' through the post-Cold War period, the 
reductions have been felt most keenly in land force modernization. 
Indeed, the two cardinal program cuts of the Rumsfeld years were the 
Army's Crusader howitzer and Comanche scout helicopter; my point is not 
a post-mortem justification of these projects, but to indicate that 
land systems have been the lowest procurement priority. The state of 
land force equipment is likewise reflected in the tens of billions 
spent for reset in emergency supplemental appropriations. Nor does it 
make sense, in my judgment, to terminate or yet again restructure the 
Army's Future Combat Systems (FCS) program; indeed, it is hard to find 
a less well-understood procurement project than FCS. Program critics 
seem intent on fighting the last war--that is, in describing the 
program as it was originally conceived rather than the program being 
executed today. To be sure, there are reasonable questions to be raised 
about FCS, the structure of the project and the program priorities, 
such as whether there is sufficient value, in an irregular warfare 
world, in the FCS network. But many of the other aspects of the 
program--such as the utility in common vehicle chassis, or in new 
material that promise improved ballistic protection from a wider 
variety of threats, or engine designs that can generate the required 
amounts of electricity to run the proliferation of electronic gadgets 
that are soldiers' everyday appliances--ought not to be controversial. 
Nor can I see any purpose in returning to the old stovepiped version of 
land-force modernization that allowed the Army's various branches to 
develop the tank, or the infantry fighting vehicle, or the attack 
helicopter of its dreams but equipped them all with different radios so 
that modifications were needed to allow one platform to talk or 
exchange information with another.
    Creating an adequate land force will not be cheap. But it's a price 
we're already paying now: when adding the Army's baseline budget to the 
constant and predictable cost of mobilizing Reserve personnel and doing 
back-door procurements in the supplementals, the United States is 
paying about $200 billion per year for Army land forces. The costs of 
the Marines, which include weapons systems and other items included in 
the Navy budget is harder to estimate. In fact, Marine costs can and 
should remain relatively constant; the difference is and should remain 
in Army expansion. But it would be far better to continue to grow and 
modernize the Army under a long-term plan rather than on an annual, ad 
hoc basis through supplemental appropriations and unending Reserve 
call-ups. In very rough terms, I would estimate the cost of a large-
enough Army to be about $240 billion per year. By 2016--the time it 
would take to expand, equip and configure the force we need, and if 
President Obama's economic projections are correct--that would account 
for just 1.2 percent of U.S. gross domestic product. A million-man land 
force would be a third of 1 percent of the U.S. population.
    Without doubt, this is a force we can afford. Conversely, the 
strategic costs of not rebuilding America's land forces would be very 
great indeed. We cannot expect to exercise leadership in the 
international community if we are unable to guarantee the stability of 
the greater Middle East; in addition to the economic value of the 
region's resources, the political volatility of the Islamic world, and 
the prospects for jihadi terrorism, make it a cockpit for many 
conflicts--not just regional, but potentially between global great 
powers. Nor can we expect, at this juncture, to stabilize the region by 
offshore balancing. That moment has passed, both militarily and 
geostrategically; the clock cannot be turned back. Land power is not 
the answer to every problem, but it is an essential answer to this 
problem.
    I wish to thank Senator Lieberman, Senator Thune, and the members 
and staff of the subcommittee for this opportunity and your attention. 
I look forward to any questions you may have.

    Senator Lieberman. Thanks very much, Tom. Very interesting. 
It strikes me as we're talking today that we are assuming the 
centrality of our land forces in persistent irregular conflict, 
and of course we should. But it seemed not so long ago that 
there was some feeling, certainly during the 90s, that maybe we 
could deal with an irregular conflict from the air. Obviously, 
air power is very important, but I think everybody now agrees 
from our experience that land power is the key.
    Our final witness, Dr. Pete Mansoor, has really been at the 
heart of the transformation of our land forces, a real scholar-
soldier. He is the General Raymond Mason, Jr., Chair in 
Military History at Ohio State University. Last year he retired 
from the Army after commanding a brigade of the First Armored 
Division in Iraq, and later served as a Special Adviser to 
General David Petraeus at Multi-National Force-Iraq in Baghdad, 
in which capacity many of us had the pleasure to meet him.
    Dr. Mansoor's experiences, I think, will add a valuable 
perspective on today's discussion, and for that reason and many 
others I thank you for being here.

STATEMENT OF PETER R. MANSOOR, PH.D., GENERAL RAYMOND E. MASON, 
   JR., CHAIR OF MILITARY HISTORY, THE OHIO STATE UNIVERSITY

    Dr. Mansoor. Thank you, Mr. Chairman, Senator Thune, 
members of the subcommittee. I appreciate the opportunity to 
appear today to discuss the ongoing development of our Nation's 
land power.
    Due in no small measure to the remarkable capabilities of 
the other components of our Armed Forces, I believe that land 
power will be the deciding factor in our Nation's wars in the 
early 21st century. The United States remains the preeminent 
global power in conventional warfare, a fact well-understood by 
our opponents. It is far easier for the enemy to challenge the 
capabilities of American forces in an asymmetric fashion. In 
short, our enemies will most likely avoid fighting the type of 
wars the United States has organized and trained its Armed 
Forces to fight.
    In the 1990s, various military officers and defense 
analysts posited a coming revolution in military affairs based 
on information dominance coupled with precision-guided 
munitions. Concepts such as networkcentric warfare envisioned 
near-perfect intelligence from manned and unmanned sensors, 
satellites, and other intelligence, surveillance, and 
reconnaissance assets. Accurate and timely information would 
lead to battle space dominance, prompt attacks on targets from 
extended ranges, and the execution of rapid, decisive 
operations that would quickly and precisely collapse an enemy 
armed force or regime at its center of gravity.
    Advanced sensors and precision guided munitions, however, 
are tactical and operational capabilities. They are not a 
strategy. Those leaders who staked the outcome of the Iraq war 
on rapid, decisive operations misread the nature of war, and 
not just the nature of war in the post Cold War era, but the 
nature of warfare in any era. Despite our high-tech 
capabilities, uncertainty and the interplay of friction and 
chance on military operations will remain integral to war for 
the indefinite future.
    There is a larger point here. The emphasis on technology 
over an understanding of the realities of war and conflict 
reflects the historicism not only of too much of the officer 
corps, but the American educational system as well. Our 
mistakes in Iraq and Afghanistan have come through a pervasive 
failure to understand the historical framework within which 
insurgencies take place, to appreciate the cultural and 
political factors of other nations and peoples, and to 
encourage the learning of other languages. In other words, we 
managed to repeat many of the mistakes that we made in Vietnam 
because America's political and military leaders managed to 
forget nearly every lesson of that conflict.
    As appealing as high-tech warfare with standoff weapons may 
seem, those who advocate it in the current environment are 
guilty of mirror imaging our opponents. State and non-state 
actors are using proxy forces and insurgencies in Iraq, 
Afghanistan, and elsewhere to advance their political goals 
along with their social and religious agendas. We cannot rely 
on high-tech weaponry to check these groups. High-tech weapons 
designed for combat at stand-off ranges are ill-suited for 
combating insurgents in urban strongholds. Sensors are a poor 
substitute for personal interaction.
    Therefore, we must closely examine expensive high tech 
programs such as the Army's FCS to determine if they are useful 
in the current operational environment, where the typical 
engagement range is less than 500 meters and the need to engage 
the population is the paramount priority.
    History has underlined again and again that 
counterinsurgency warfare can only be won on the ground, as you 
noted, Mr. Chairman, and only by applying all elements of 
national power to the struggle. These struggles are troop-
intensive, for the counterinsurgent must secure and control the 
population, deliver essential services, and provide a basic 
quality of life. These requirements take energy, resources, and 
above all, time.
    Although the requirement to sustain counterinsurgency 
forces for extended periods suggests the need for considerable 
expansion of the U.S. Army and Marine Corps, as my colleague 
has noted, the best way to provide more ground forces is to 
procure them from the host nation. This realization mandates a 
significant focus on advisory duty and foreign internal 
defense, along with the creation of an institutional home for 
these activities in the Armed Forces.
    We must design our military forces with a balanced set of 
capabilities, but it is essential that they be capable of 
operating effectively in a counterinsurgency environment. 
During the 1990s U.S. Army leaders believed that units trained 
for major combat operations could easily adjust to take on 
other missions such as peacekeeping or humanitarian assistance. 
In Iraq and Afghanistan we have learned that counterinsurgency 
warfare actually requires a long list of added capabilities 
that training for conventional high end combat does not 
address. In short, counterinsurgency is a thinking soldier's 
war.
    Military intelligence must also change or risk irrelevance. 
High-tech intelligence capabilities are no substitute for human 
intelligence and cultural understanding. One cannot divine 
tribal structures, insurgent networks, sectarian divisions, and 
ethnic mosaics through technological means.
    As the United States ramped up its math and science 
education following the Soviet launch of Sputnik in 1957, so 
must it now pursue excellence in humanities programs such as 
history, cultural anthropology, regional studies, and 
languages. Our Nation's universities, to include my home at the 
Ohio State University, stand ready to assist in this endeavor.
    The transformation of American land power for the wars of 
the 21st century remains incomplete. Although bulky divisions 
have given way to smaller, modular, more easily deployable 
brigade combat teams, these units remain largely configured for 
conventional combat, and imperfectly at that. Brigades that are 
tailored for counterinsurgency operations would include more 
infantry, a full engineer battalion, augmented staff 
capabilities, and intelligence, surveillance, and 
reconnaissance assets, particularly armed reconnaissance units 
that can engage the people and fight for information.
    The need for more infantry and engineers is especially 
critical, so much so that the Army should forgo the creation of 
additional brigade combat teams until existing units are 
reconfigured with the addition of a third maneuver battalion. 
If this seems like a small matter, if you did that across the 
force it would take about 45,000 soldiers to add another 
maneuver battalion and a full-up engineer battalion. The 
paucity of the current brigade combat team structure has forced 
brigade commanders to attach armor and infantry companies to 
the reconnaissance squadron, which is otherwise too lightly 
armed to act as a combat force.
    A triangular organization would be more effective not just 
in counterinsurgency warfare, but would give our maneuver 
commanders the resources they need to fight more effectively in 
conventional conflicts as well.
    Finally, the culture of the U.S. Army must continue to 
change or the organization will be unprepared to fight and win 
the wars of the 21st century. While retaining the capability to 
conduct major combat operations, the Army must continue to 
embrace missions other than conventional land force combat. We 
must adapt the current personnel system, with its emphasis on 
rewarding technical and tactical expertise at the expense of 
intellectual understanding and a broader, deeper grasp of the 
world in which we live, to promote those leaders with the skill 
sets and education needed for the wars America will fight in 
the decades ahead.
    In other words, to win the fight against 21st century 
opponents we must first adapt the organizational culture of our 
military forces to the realities of 21st century warfare.
    Thank you and I look forward to your questions.
    [The prepared statement of Dr. Mansoor follows:]

   Prepared Statement by Dr. Peter R. Mansoor, Colonel, USA (Ret.), 
  General Raymond E. Mason, Jr., Chair of Military History, The Ohio 
                            State University

    Senator Lieberman, Senator Thune, and members of the committee, 
thank you for the opportunity to appear today to discuss the ongoing 
development of our Nation's land power. Due in no small measure to the 
remarkable capabilities of the other components of our Armed Forces, I 
believe that land power will be the deciding factor in our Nation's 
wars in the early decades of the 21st century. The United States 
remains the pre-eminent global power in conventional warfare, a fact 
well-understood by our opponents. It is far easier for an enemy to 
challenge the capabilities of American forces in an asymmetric fashion. 
Some opponents will seek to neutralize our technological advantages 
through terrorism and insurgencies; others may produce nuclear weapons 
that threaten massive destruction. In short, our enemies will most 
likely avoid fighting the type of wars the United States has organized 
and trained its armed forces to fight.
    In the 1990s, various military officers and defense analysts 
posited a coming revolution in military affairs based on information 
dominance coupled with precision weapons. Concepts such as network-
centric warfare envisioned near-perfect intelligence from manned and 
unmanned sensors, satellites, and other intelligence, surveillance, and 
reconnaissance assets. Accurate and timely information would lead to 
battlespace dominance, prompt attacks on targets from extended ranges, 
and the execution of rapid, decisive operations that would quickly and 
precisely collapse an enemy armed force or regime at its center of 
gravity. Advanced sensors and precision guided munitions, however, are 
tactical and operational capabilities--they are not a strategy. Those 
leaders who staked the outcome of the Iraq War on rapid, decisive 
operations misread the nature of war--and not just the nature of war in 
the post-Cold War era, but the nature of war in any era. Despite our 
high-tech capabilities, uncertainty and the interplay of friction and 
chance on military operations will remain integral to war for the 
indefinite future.
    There is a larger point here. The emphasis on technology over an 
understanding of the realities of war and conflict reflect the 
ahistoricism not only of too much of the officer corps but of the 
American educational system as well. Our mistakes in Iraq and 
Afghanistan have come through a pervasive failure to understand the 
historical framework within which insurgencies take place, to 
appreciate the cultural and political factors of other nations and 
people, and to encourage the learning of other languages. In other 
words, we managed to repeat many of the mistakes that we made in 
Vietnam, because America's political and military leaders managed to 
forget nearly every lesson of that conflict.
    Accordingly, the United States must understand and apply the 
strategic, operational, tactical, and doctrinal lessons of the wars we 
are now waging in Iraq and Afghanistan. The U.S. military has already 
learned a great deal, but there is much more work to be done in 
developing and inculcating counterinsurgency doctrine, refining 
professional military education, revamping promotion systems, and 
establishing relevant tactical and operational capabilities in our 
Armed Forces.
    As appealing as high-tech warfare with standoff weapons may seem, 
those who advocate it in the current environment are guilty of mirror-
imaging our opponents. State and non-state actors are using proxy 
forces and insurgencies in Iraq, Afghanistan, and elsewhere to advance 
their political goals along with their social and religious agendas. We 
cannot rely on high-tech weaponry to check these groups. Strikes with 
unmanned aerial systems across national borders inflame local opinion 
and often serve to create more terrorists than they destroy. High-tech 
weapons designed for combat at stand-off ranges are ill-suited for 
combating insurgents in urban strongholds. Sensors are a poor 
substitute for personal interaction. Therefore, we must closely examine 
expensive, high-tech programs such as the Army's Future Combat System 
to determine if they are useful in the current operational environment, 
where the typical engagement range is less than 500 meters and the need 
to engage the population is the paramount priority.
    History has underlined again and again that counterinsurgency 
warfare can only be won on the ground, and only by applying all 
elements of national power to the struggle. Insurgency and 
counterinsurgency are struggles for legitimacy and for competing 
visions of governance and the future. The side will win that can gain 
the people's trust and confidence or, failing that, to control their 
movements and actions. These struggles are troop intensive, for the 
counterinsurgent must secure and control the population, deliver 
essential services, and provide a basic quality of life. These 
requirements take energy, resources, and above all, time.
    Requirements vary by location and circumstances, but a historically 
based rule of thumb is that successful counterinsurgencies require 20 
to 25 security force personnel for every 1,000 people. Although the 
requirement to sustain such forces for extended periods suggests the 
need for considerable expansion of the U.S. Army and Marine Corps, the 
best way to provide more ground forces is to procure them from the host 
nation. This realization mandates a significant focus on advisory duty 
and foreign internal defense, along with the creation of an 
institutional home for these activities in the armed forces.
    We must design our military forces with a balanced set of 
capabilities, but it is essential that they be capable of operating 
effectively in a counterinsurgency environment. During the 1990s, U.S. 
Army leaders believed that units trained for major combat operations 
could easily adjust to take on other missions, such as peacekeeping or 
humanitarian assistance. In Iraq and Afghanistan we have learned that 
counterinsurgency warfare requires a long list of added capabilities 
that training for conventional, high-end combat does not address. 
Indeed, the conflicts in Iraq and Afghanistan are really four types of 
security operations lumped together--a counterinsurgency campaign to 
protect the population and subdue insurgents, a counterterrorism fight 
to destroy terrorist operatives, a peacekeeping operation to separate 
hostile factions, and a law enforcement operation to fight organized 
crime and corruption. Each of them requires unique competencies not 
normally found in military organizations designed for conventional 
warfighting. Nation-building tasks add even more complexity to this 
mixture. In short, counterinsurgency is a thinking soldier's war.
    Military intelligence structures must also change or risk 
irrelevance. The most effective intelligence system in these conflicts 
combines human intelligence with technical intelligence. Insurgents can 
hide in plain sight, but our forces can target them when they move, 
shoot, or communicate. This happens when conventional military and 
police forces dominate an area and force the insurgents and terrorists 
to reposition, at which point they become vulnerable. The use of 
signals intelligence, persistent sensors, biometric identity systems, 
and armed unmanned aerial vehicles are vital capabilities that we must 
continue to expand. These capabilities, however, are no substitute for 
human intelligence and cultural understanding. One cannot divine tribal 
structures, insurgent networks, sectarian divisions, and ethnic mosaics 
through technological means. As the United States ramped up its math 
and science education following the Soviet launch of Sputnik in 1957, 
so must it now pursue excellence in humanities programs such as 
history, cultural anthropology, regional studies, and languages. Our 
nation's universities, to include my home at the Ohio State University, 
stand ready to assist in this endeavor.
    The transformation of American land power for the wars of the 21st 
century remains incomplete. In Military Innovation in the Interwar 
Period, Allan Millett lays out three prerequisites for effective 
military innovation: revised doctrine, changes in professional military 
education, and the creation of operational units that meet real 
strategic needs. The U.S. Army has met the first two fundamentals, but 
not yet the third. Although bulky divisions have given way to smaller, 
modular, more easily deployable brigade combat teams, these units 
remain largely configured for conventional combat--and imperfectly at 
that. Brigades that are tailored for counterinsurgency operations would 
include more infantry; a full engineer battalion; a large intelligence 
section built mainly around human and signals intelligence, with 
significant analytical capability; military police, engineer, civil 
affairs, information operations, and psychological operations cells; a 
contracting section; adviser and liaison sections, with requisite 
language capabilities; human terrain teams, with the capability to map 
tribal and social networks; explosive ordnance demolition teams; and 
intelligence, surveillance, and reconnaissance assets--particularly 
armed reconnaissance units that can engage the people and fight for 
information, along with armed unmanned aerial vehicles and ground 
sensors. The need for more infantry and engineers is especially 
critical, so much so that the Army should forgo the creation of 
additional brigade combat teams until existing units are reconfigured 
with the addition of a third maneuver battalion. The paucity of the 
current brigade combat team structure has forced brigade commanders to 
attach armor and infantry companies to the reconnaissance, 
surveillance, and target acquisition squadron, which is otherwise too 
lightly armed to act as a combat force. A triangular organization would 
be more effective not just in counterinsurgency warfare, but would give 
our maneuver commanders the resources they need to fight more 
effectively in conventional conflicts as well.
    The culture of the U.S. Army must continue to change, or the 
organization will be unprepared to fight and win the wars of the 21st 
century. While retaining the capability to conduct major combat 
operations, the Army must continue to embrace missions other than 
conventional land force combat. We must adapt the current personnel 
system, with its emphasis on rewarding technical and tactical 
competence at the expense of intellectual understanding and a broader, 
deeper grasp of the world in which we live, to promote those leaders 
with the skill sets and education needed for the wars America will 
fight in the decades ahead. In other words, to win the fight against 
21st century opponents, we must first adapt the organizational culture 
of our military forces to the realities of 21st century warfare.
    Thank you.

    Senator Lieberman. That was excellent. Thank you.
    Unfortunately, a series of three votes went off at around 
2:30 p.m. So if we hustle over now we'll get to the end of the 
first vote. We'll try to get back as soon after 3 o'clock as we 
can, but I'm glad we got the opening statements in. So please 
stand at ease for a while. The hearing will be recessed.
    [Recessed at 2:44 p.m., reconvened at 3:05 p.m.]
    Senator Lieberman. Thanks for your patience in this. I 
thought, rather than just linger and schmooze with my 
colleagues, as enjoyable as that is, between the votes, it was 
good to come back. Senator Thune will follow. He has an 
amendment on the floor now, so he may take a while. We'll take 
turns going back for the last of the three votes.
    Your opening statements were really excellent and 
responsive to what we were talking about. Let me focus for a 
minute on FCS and just try to draw you out in a little more 
detail, and then I'll come back to the Army personnel 
questions, which are very important, and some provocative ideas 
were presented.
    FCS, as you all know, features a tactical network, eight 
manned ground vehicles, two classes of unmanned aerial 
vehicles, and other robotic ground vehicles. The Army says it 
plans to build 15 FCS brigade teams and also plans to spin out 
certain FCS technologies and systems to the modular infantry 
brigades of the current force as they become available.
    It's obvious that, pursuant to what the President and the 
Secretary of Defense have said, that FCS is under review now. 
Each of you touched on the program in some ways. I suppose in 
the most direct way, and probably too simplistic, I want to ask 
you what you think. If you were advising the President on FCS, 
generally speaking to frame three options, would you recommend 
that it continue on the course it's on now, be modified, or be 
terminated?
    Pete, why don't we start with you.
    Dr. Mansoor. Thank you, Mr. Chairman. I'd like to go back 
to military innovation in general, so that we understand why 
FCS exists or if we can get the Army to tell us exactly what 
its aimed at. If you go back to military innovation in the 
interwar period between World War I and World War II, for 
instance, what you see is that the best innovation, such as 
carrier aviation, armored warfare, the British integrated air 
defense system that won the Battle of Britain, are focused 
tactical, technical, and operational solutions to specific 
problems and specific challenges. Unfocused modernization, that 
looks out at creating a kind of capability that has no 
historical antecedent, usually creates the wrong type of 
capabilities and ends up being not a viable capability in the 
next war.
    This is the issue with FCS. It's a system that's been built 
around unproven theories that are aimed at creating a kind of 
capability that really doesn't meet a specific strategic 
challenge. If you look out over the range of possible enemies 
the United States faces today, the number of possibilities of 
the United States engaging in mobile armored warfare on the 
ground with massed armies is pretty limited. On the other hand, 
if you look at the possibilities for irregular warfare, we're 
already fighting two, Iraq and Afghanistan. If you look at the 
possibilities in Pakistan or Mexico or any number of other 
areas of the world today, I would argue that the Army should be 
creating capabilities to meet those specific strategic 
challenges that exist. Therefore, with FCS you should look at 
it with a view to modifying it to make sure that it meets those 
current challenges.
    My issue with the system is it's really intended to fight 
at long ranges with a very networked sensor-heavy system, where 
you see first, act first, and hit targets very precisely. But 
when you look at targets in counterinsurgency warfare, they 
wear civilian clothes, they hide among the people, and they're 
in dense urban areas. I don't think FCS is really configured to 
fight that kind of war. Therefore, if we're going to equip 19 
Active Army brigades and maybe a number of other Reserve 
brigades with this system, you're creating the kind of 
capability that really isn't tuned to the kind of war that 
we're going to be facing for the next 2, 3 decades at a 
minimum. So I would think that the system would have to be 
modified.
    Senator Lieberman. I want to hear the other two, but I'll 
come back and ask you some questions. That was very helpful.
    Andy, what would you say?
    Dr. Krepinevich. I'd say major modification, for four 
reasons. One, I think there's a lot of, as I said, fiscal risk. 
The program is at about $160 billion. Independent estimates put 
it closer to $200 billion. It originally started out as 18 
systems. To keep the costs under control, they had to reduce it 
down to 14 systems. Now there's discussion they're going to 
reduce it down to 10 new systems.
    Technical risk. According to the GAO report, only 3 of the 
44 critical technologies have reached the point where best 
business practices would say yes, this is an acceptable risk in 
terms of moving forward with an entire program.
    You have an F-35 that has 20 million lines of code. The FCS 
network is now up to 95 million lines of code. The Army has 
told me that about 70 million lines of this code are code 
that's already been written for other purposes, that we're 
going to pull together. My one concern is that you could also 
say that Windows Vista was built on a lot of established lines 
of code and we were just adding code to it. I just think when 
you're adding as much code as is going to be in the F-35 that's 
a real significant issue.
    There's temporal risk. General Shinseki when FCS started 
said: ``If we don't field this system by 2010, the Army risks 
becoming strategically irrelevant.'' Obviously we're not going 
to get there. It's not going to be 2012, it's not going to be 
2015. Now we're talking 2017. At some point the assumptions you 
make about getting rid of our oldest equipment because this is 
coming on; if that stuff doesn't come on at a certain point, 
then you incur another risk. You either have to start paying 
much higher operations and maintenance costs for the stuff that 
you can't get rid of or you have to start recapitalizing the 
stuff that you already have. I don't think that's been given 
sufficient weight.
    Finally, as Dr. Mansoor points out, this system was 
revolutionary for a form of warfare that I fear is passing into 
history: see first, understand first, act first, and finish 
decisively. The idea was that, unlike the Army I grew up in, 
where you closed with and destroyed the enemy, you maneuvered, 
then closed with him in close combat and then defeated him, the 
idea here was you would see enemy armored forces at a distance 
and the decisive battle would occur at a distance.
    First of all, we can already do that if the Army and the 
Air Force work together. We showed that in the second Gulf War. 
But second, as Dr. Mansoor pointed out, our enemies don't fight 
that way any more and they have almost no incentive to go back 
to fighting that way.
    I'm also concerned in terms of operational effectiveness 
about a system whose effectiveness in terms of public 
pronouncements is very much a product of simulations. 
Simulations about what's very effective in this environment, 
that's if everything works as assumed, because a simulation in 
many respects is only as good as the assumptions you put into 
it.
    My feeling is that the big advantage that was supposed to 
be offered by FCS was the network that would enable you to 
violate the military principle of mass and disperse your 
forces, making them far less vulnerable. In an irregular 
warfare environment that kind of network may be highly useful. 
But we should build the network, number one. We should 
determine what kind of network we need, and I think principally 
it's a network for irregular warfare primarily.
    Third, we should see whether it's possible to build that 
kind of network, before we really take big steps in terms of 
these are the kinds of ground combat vehicles that best suit 
this particular modernization program for the Army.
    Senator Lieberman. Thanks. That's very interesting. Good 
discussion.
    My time is up. I wonder if you want to try a short answer, 
Mr. Donnelly, or wait until the second round.
    Mr. Donnelly. I'll try to be quick and then if it's 
inadequate you'll tell me so.
    Senator Lieberman. Okay, good.
    Mr. Donnelly. I would accelerate the program actually. I 
think Pete's historical example is inapropos to the current 
moment. That was a period of strategic pause between two global 
conflicts. We are now, as everybody agrees, in an era of 
persistent conflict and we have a need to continue to field a 
force on a day-in and day-out basis.
    I would agree with Andy that the value of the network is 
really the key to the system, but we shouldn't measure it by 
the old outdated transformation rhetoric of 2000 and previous. 
The value of a network in an irregular warfare environment is 
something that we should test, and that's what the Army is 
doing at Fort Bliss. I think we should have an open mind about 
whether it's going to work or whether it is worth the money.
    The other part of the network or part of the program that I 
think is critical is the radio part of it. The value of a 
network is, I think, particularly in a dispersed operational 
environment, one that's self-generating. There are a lot of 
questions about the Joint Tactical Radio System (JTRS). I'm not 
an engineer, but I think it's really an engineering question as 
to whether it can be solved. We need a network that doesn't go 
blind or become useless when satellites are not available or 
when other nodes outside the ground network are unavailable.
    Finally, the individual soldier gear, the revival of what 
used to be called the Land Warrior Program, particularly in the 
irregular warfare environment, and the rifleman radio, as it 
was called, those kinds of little things that don't get the 
headlines. We're going to need some new vehicles. The ones that 
we have are old and have reached the point where they can't 
really be modified to do what they need to do, and Stryker is 
only a little bit better than Bradley and Abrams in that 
regard.
    Senator Lieberman. So bottom line, you would continue on 
the current course and really try to accelerate it?
    Mr. Donnelly. Particularly the individual soldier gear, the 
radio, and making the network work, which again I think are 
software engineering things, challenges that are solvable.
    Senator Lieberman. Thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you all very much for your testimony. Mr. Donnelly, 
you had mentioned that the force isn't large enough. You 
mentioned 780,000 in 1991. I'm just curious, perhaps from each 
of you, what you might think the optimal force size is for the 
modern Army.
    Mr. Donnelly. Again, in order to maintain the pace of 
operations that I think is reasonable to expect, to be able to 
give people time to train, to be educated the way we want them 
to be, and to have a decent quality of family life so they stay 
in the Army, so the contract between America and its soldiers 
is not violated, plus or minus, I would say somewhere in the 
750,000 to 800,000 ballpark for the Army, is what I would keep 
coming back to.
    Senator Thune. Dr. Krepinevich?
    Dr. Krepinevich. I guess in an ideal world I would like Tom 
Donnelly's Army. In the real world what I see is an Army 
leadership that is asking more of its soldiers and its 
officers. General Craddock says it's not strategic corporals 
any more; I need strategic privates. I need even the most 
junior soldiers to be able to operate at a very high level of 
competence, and across the full spectrum of conflict, high-end 
and low-end, almost seamlessly.
    What we're also seeing, though, is despite the fact that we 
keep demanding more, the quality is going down in terms of the 
enlistees and the NCOs. It's now automatic promotion to E-5 and 
E-6. That brings back memories of the Vietnam era Army that I 
served in, the shake-and-bake NCOs. These are people some of 
whom should not be junior NCOs. The increased stress on senior 
NCOs, and the accelerated promotion rates for officers.
    So what we have is a situation where the demands go up, the 
quality goes down, and oh, by the way, the cost per soldier has 
increased nearly 50 percent in real terms since September 11. 
We can say we want a 781,000-soldier Army. The fact of the 
matter is we can't afford it. If we tried to get it, I think 
the quality would go down even further.
    Strategy is about playing to your advantages. Our advantage 
is not large quantities of manpower. Our advantage is 
technology and high-quality manpower. I think DOD has it right. 
The way we leverage technology and our quality manpower is to 
train, organize, advise, and equip the indigenous forces of 
other countries, both to prevent from descending into 
instability and becoming failed states, and also to be able to 
have a sufficient force. I think we can do this with roughly 
the numbers we have now, to be able to plug the gap in cases 
where we haven't been successful and where the failure of a 
state or the loss of a region would be unacceptable to us in 
terms of our interests.
    So again, our advantages, quality personnel, technology, 
equipment, and also allies. We have more allies than any other 
country in the world. Leverage them, train them, equip them to 
the extent that we can, and rely on diplomacy to help them get 
more in the game.
    I think the notion that somehow you can have a much bigger 
Army and retain quality and not suffer unacceptable costs in 
terms of trying to pay and equip that Army is an illusion.
    Dr. Mansoor. Thank you, Senator. I think with 48 Active 
brigade combat teams, if you want to be able to deploy one 
third of them on a continual basis, we're able to deploy 16 at 
any given time, if you add the capabilities that I called for 
in my testimony, I think you get up to a figure somewhere short 
of 600,000.
    But I'd like to add on to what Dr. Krepinevich had to say 
because I think it goes to something that's really crucial. 
That is, it's just not total numbers of soldiers. We need to 
substantially increase the number of officers that we have, and 
for several reasons. The ability of this Nation to provide 
advisers to foreign militaries is a crucial component, I think, 
of our military strategy going forward.
    Those advisers cannot be trained quickly. They have to be 
officers and even senior NCOs with years of experience in the 
force. Where the Army used to get these officers and NCOs 
during the Cold War was from the U.S. Training and Doctrine 
Command (TRADOC). But what we've done in the 1990s is we've 
gutted TRADOC, moved those Active officers into Active units, 
and instead staffed those positions with contractors. So we've 
taken out all the fat in the system, if you will, but we've 
made it almost impossible to find the number of advisers that 
we need for the kind of requirements that we have.
    The other thing I'd say about increasing the officer corps 
is it would give our officers time for increased professional 
military education in future years, because this is what is 
going to be really, really crucial to our Army and Marine Corps 
and the other Services as well going forward. We have to have 
officers who understand the way the world works well beyond 
just the kind of professional military education they get at 
Fort Leavenworth or the war college. I think it calls for 
additional years of education in the mid-grade period, but 
that's going to require a bigger officer corps to make sure 
that we can provide the time for them to do that.
    Senator Thune. Thank you.
    Mr. Chairman, I think I'm going to run over and vote and 
try to come back. Do you want to keep going?
    Senator Lieberman. Yes. Senator Burris, are you prepared to 
come back or do you want to go forward a little bit?
    Senator Burris. Mr. Chairman, mine are quick.
    Senator Lieberman. Go right ahead Senator Burris, thanks 
for being here.
    Senator Burris. My pleasure, Mr. Chairman.
    Let me just present this to especially Dr. Krepinevich.
    In your statement you say that the Army has understandably 
felt compelled to pursue the full spectrum approach owing to 
the need to cover a range of missions within the limitations on 
its size imposed by fiscal constraints and its all-volunteer 
character. You then go on to imply that this approach is not 
viable, but to counter the Army's shortcomings the U.S. defense 
strategy is based upon the Army's focusing on building up the 
military capabilities of threatened states. Then you state that 
the Army must give greater attention to supporting this 
strategy.
    Recently we have been briefed by the 10 unified combatant 
commands. I noted that each mentioned their military-to-
military activities, and that they desire to increase these 
activities.
    Dr. Krepinevich, are the military-to-military activities 
specifically what you are addressing in your statement?
    Dr. Krepinevich. In part. Military-to-military activities 
might be joint exercises or combined exercises with other 
militaries. They might be officers attending our staff colleges 
and war colleges, or our officers going and attending theirs. 
But it might also extend in my estimation to things like 
training, organizing, equipping, and operating with their 
military units, depending upon the situation in the field and 
in combat, if it's a state that's threatened by disorder, 
terrorism, or insurgents.
    So it's much more expansive than just formal meetings and 
exchanges of students at staff and war colleges. I would see 
certain Army brigades that are oriented in this way as being 
available to support requests from other countries for that 
kind of support, for support in enabling them to defend 
themselves from internal insurrection or external subversion.
    Senator Burris. Do you have evidence or instances where the 
combatant commanders are not supporting current U.S. defense 
strategies, and could you please help me put this into context 
if those combatant commanders are not?
    Dr. Krepinevich. I don't have any evidence that they're not 
supporting U.S. strategy. In the case of the Army as an 
institution, not a combatant commander, my concern is that 
their approach in supporting the strategy places too much 
emphasis on dealing with the risk of conventional war, which I 
think is relatively low compared to irregular war, and not 
enough attention on creating the capability and the capacity to 
execute what is the DOD strategy, which emphasizes not 
deploying our forces to fight their wars for them, but helping 
these people build up their own forces, train their own forces, 
and advise them when they go into military operations until 
they learn to stand on their own two feet.
    That is where we have the advantage. We don't have a huge 
Army. We don't have a large population that we can draw upon. 
We have a relatively small Army for the tasks that it's been 
asked to address. Our advantages are we have very high-quality 
soldiers that can train and advise. We have a large defense 
budget that can help us buy equipment to equip others, so we 
don't have to do the fighting ourselves. We do have allies 
that, if we engage properly, we can help get them to help 
participate in this kind of endeavor.
    At the end of the day, the best force to impose security in 
a country and a society are the indigenous forces, not external 
forces.
    Senator Burris. Mr. Donnelly?
    Mr. Donnelly. Oh, I'm sorry. On the same question?
    Senator Burris. No, this is another question for you, 
because I'm trying to deal with your 800,000-soldier force. 
Now, given the fact that we don't have a draft, how do you 
think we can get that number up, when it's all volunteer?
    Mr. Donnelly. First of all, the original All-Volunteer 
Force that we raised, trained, and equipped for the Cold War 
was that size, 780,000 men. It was all volunteer. It was highly 
professional. Senator Lieberman noted at the beginning of this 
hearing that the Army had already reached the increased size of 
547,000 that originated with the plan that originated with the 
Bush administration, that President Obama has indicated his 
support for. The Army has reached that number early, before it 
was planned to reach that number.
    I lament to say this in some ways, but in difficult 
economic times the task of recruiting is going to be a little 
bit easier. Also, one of the big failings of President Bush was 
his failure to appeal to Americans to serve their country in 
uniform specifically. I would certainly think that President 
Obama has unique moral authority to make that kind of appeal to 
Americans.
    So I think actually getting the force size up is quite an 
achievable goal, and maintaining the quality is also quite 
achievable. We shouldn't measure quality by inputs per se, but 
rather by the performance of the force in the field. All of us 
have said, including the committee has noted, really the quite 
remarkable performance of soldiers and marines over the last 
couple years in responding to challenges that they did not 
anticipate and in fighting a different kind of war than they 
were originally organized, trained, and equipped for.
    So actually I feel quite confident in the Army's and the 
Marine Corps's ability as institutions to shape young Americans 
to perform superbly under very stressful conditions. I just 
think we need to give them the means to execute the range of 
tasks that we have asked for.
    Senator Burris. Is there any conflict between you and Dr. 
Krepinevich? Because he just said that the quality of the 
soldiers when you expand is going down.
    Mr. Donnelly. First of all, the measures that we're 
referring to are things like scores on Army aptitude tests and 
high school graduates and things like that. There has been a 
marginal diminution in that quality in the last couple years. 
On the other hand, when we again look at the performance of the 
force in the field we haven't seen much repeat of things like 
the Abu Ghraib scandal or the Haditha killings, for example.
    So in my judgment, the performance of the force as we see 
it and how it operates on a day-in and day-out basis really 
exceeds what I think any of us would have guessed on September 
10. If you had told us on September 10, 2001, what was coming 
down the pike, we would all have said: ``Oh my gosh, this is 
really probably going to break the Army.'' For all the stress 
the Army and the Marine Corps have taken on, they've performed 
remarkably well, in my judgment. So when we measure quality as 
output, I'm quite impressed.
    Senator Burris. I see my time has expired. I better go 
vote.
    Senator Inhofe. Gentlemen, thank you very much for your 
testimony. It's kind of good that you don't all agree with each 
other and that helps me out a little bit. We can always find 
someone who agrees with me and then I can concentrate on them. 
[Laughter.]
    Senator Burris was pursuing this force strength and the 
capabilities and whether we could sustain those numbers. I have 
to tell you, I was dead wrong. I was a product of the draft 
before most of these guys were born, and I never believed prior 
to September 11, seeing the performance that I saw, that we 
would have the quality that we have.
    The retention has been very good. The recruitment's been 
good. Generally that helps a little bit when you're in combat, 
to have those results. Do you think we can sustain that kind of 
retention and recruitment that we've been enjoying here 
recently?
    Mr. Donnelly. I'll volunteer. I would never take that for 
granted.
    Senator Inhofe. No, I know that.
    Mr. Donnelly. The thing that really worries me is that we 
don't know where the cliff is until we've taken one step too 
far. I think the force has responded in ways that far exceed 
what our expectations would have been. We're continuing to put 
it under a huge amount of stress, and a lot of that just goes 
to the fundamental question of asking a small amount of people 
to do a whole lot of work, and we have to spread the load a 
little bit more by having a larger force.
    Senator Inhofe. I agree with that. I think I have probably 
made more trips over there than any other member has and I do 
take it very seriously. But let me just go on another line of 
questioning.
    Dr. Krepinevich, I heard your testimony and I know that a 
lot of the decisions that are made today in terms of force 
strength and modernization are made in conjunction with 
expectations of what our needs are going to be. I think that 
you guys are smart and we have a lot of smart generals, and if 
you're asked what we're going to have to have 10 years from now 
you're going to come out with some real good answers and you're 
probably going to be wrong.
    I mentioned several times that in my last year in the House 
and on the House Armed Services Committee, we had someone 
testifying that said 10 years from now we won't need ground 
troops. So as needs change and times change, I've come to the 
conclusion that, even though I know that others are in 
different positions than I am, that we really should have the 
best of everything for all possible contingencies. We don't 
know the asymmetric threats that are out there, or maybe the 
conventional threats.
    But in terms of strike vehicles, for example, I was very 
proud of General John Jumper--this was before he was Chief of 
the Air Force--back in the late 1990s talking about the fact 
that other countries, and he was referring to Russia at that 
time, the SU series fighter aircraft, were cranking out strike 
vehicles better than the best that we had, which at that time 
was F-15s and F-16s.
    To me, I find that just unacceptable. We've had quite a bit 
of discussion here about FCS. My feeling there is that if you 
take any element that's on the ground that our troops are using 
in the defense of themselves and of America, I think they 
should be the best of everything. When you see some elements of 
FCS, of what we're using right now like the Paladin and the 
Non-Line of Sight Cannon. We went through this thing where we 
were going to get to the Crusader and correct that thing, and 
then that was axed. I'm a Republican and of course George Bush 
was a Republican. He did that with almost no warning.
    Then I thought that was a blessing in disguise as the 
months and the years went by because that led us into the FCS 
mentality of just doing something where we can be superior in 
every way. I can remember telling this committee that the 
Paladin was our best cannon at that time. You had to actually 
get out and swab the breach after every shot, World War II 
technology. Five countries, including South Africa, had a 
better cannon than we did. So I found that to be unacceptable.
    I think it was the first confirmation hearing of Donald 
Rumsfeld when I said the same thing. I think our kids should 
have the best of everything. I said, ``how do you get there if 
you would agree with me?'' He said: ``Well, it has to do with 
the overall funding,'' and we went through the entire 20th 
century with 5.7 percent of the gross domestic product (GDP) to 
support the military, and we went down to as low as just under 
3 percent at the end of the 1990s, and where should we be?
    Well, he gave me his opinion of where we should be. Let me 
just ask you all. You've given a lot of thought to this. Where 
do you think we should be in terms of overall funding to defend 
America?
    Mr. Donnelly. I will always step to a quiet microphone, but 
I'd defer to Andy or Pete to go first.
    Senator Inhofe. I think I'm going to like your answer 
better than I get from the rest of them. [Laughter.]
    Mr. Donnelly. Andy I think has rightly suggested that the 
United States should employ its competitive advantages, the 
things that we have that our adversaries or potential 
adversaries don't have. One of the things that we have is 
money. Even allowing for our current economic distress, we're a 
very rich society. You are quite right, we were able to sustain 
during the Cold War on a 50-year basis 5, 6, or 7 percent of 
GDP on defense.
    So I think we are quite capable of paying at a level of 4.5 
or 5 percent absolutely indefinitely until the end of time. So 
we can afford the military power that we need, and to constrain 
our strategy to a budget number rather than build a force that 
will support our strategic requirements seems to me to be 
looking through the telescope from the wrong end.
    Senator Inhofe. I agree with that.
    Any thoughts on that?
    Dr. Krepinevich. A couple, Senator. I think perhaps even 
more than money, the best thing we can do right now, 
particularly at the beginning of a new administration, the 
first new administration since September 11, is to engage in 
some detailed in-depth strategic thinking. We don't have an 
unlimited amount of resources, so whatever we choose to spend, 
we want to ensure that we spend it the most effective way 
possible.
    President Eisenhower, in conducting probably the best 
strategic review of any President since the end of World War 
II, gave three pieces of guidance to the people who would be 
conducting his review for him, and he actively participated in 
it. The three pieces were: first, I will not support any 
strategy that undermines the economic foundation of this 
country, because he saw that as the way of preserving what Tom 
Donnelly says is an enduring source of American competitive 
advantage, the ability to in a sense compete on a scale that is 
impossible for others. Repairing our economic foundation, I 
think, needs to be a major consideration. We talk about 
tradeoffs and where are we going to allocate resources.
    Second, he said: I will not support any strategy that 
cannot be supported by those countries we deem to be key allies 
of the United States. Here again, an important part of 
strategy. You can outsource certain things. Cultivating allies, 
I realize, it's not easy to do. But the point is, to the extent 
that we can do that we create an advantage for ourselves and we 
have resources either to build a bigger army that Tom Donnelly 
wants or to do other things that are important to us in terms 
of national priorities.
    The third piece of guidance was that the President said: 
You should not assume that we will be in an improved situation 
after a general war. Essentially, he was ruling out a 
preventive war against the Soviet Union that had a small 
nuclear capacity at the time.
    So I think the ability to craft a strategy that plays to 
your advantages is important. For example, what I have been 
talking about is our advantages do not lie in building an ever 
bigger Army, at ever greater expense. Manpower is not an 
advantage for us in so many ways. What is an advantage is the 
manpower we have is very technically capable and very well-
educated relative to most of the rest of the world.
    As Tom said, we still can compete in terms of scale. We 
still have a lot of equipment and we can buy a lot of 
equipment. If Pakistan were to fail tomorrow, stabilizing 
Pakistan according to the levels of forces that we have 
deployed to Iraq, for example, would require over 100 American 
brigades on a consistent basis. That is a real problem, but 
that is not a real solution.
    I do think the solution that was developed in the latter 
part of the Bush administration, that I hope will be sustained 
by the Obama administration, is we can provide the trainers, we 
can provide the advisers, we can equip these people with combat 
vehicles, artillery, and helicopters, whatever is needed. 
That's our strong suit. We should play to our strong suit. We 
should get the manpower of other countries engaged, not our 
own. Our manpower can be used far more productively in other 
ways.
    Senator Inhofe. I understand that and I agree with that, 
and I know that probably all three of you would be very strong 
supporters of 1206, 1207, the Commanders' Emergency Response 
Program, the Combatant Commanders Initiative Fund, 
International Military Education and Training, and all of 
those. We want to do that and we want to be prepared to do 
that.
    My only point is this, and I find there's something in my 
own mind, perhaps my narrow mind, that it is almost un-American 
that we would have a soldier on the battlefield or in the air 
or in the water that would be up against something that is 
better than what we have. That's my goal. I'd like to get there 
some time during my lifetime where we wouldn't have that 
problem.
    Dr. Krepinevich. I think that certainly was a major 
concern, as you pointed out, during the Cold War. We were in a 
race with the Soviets. We built a tank, they tried to build a 
better tank. We built a plane, they'd try and build a better 
plane.
    There really isn't anyone out there right now that's trying 
to build a better version of the Abrams tank or the F-22 
fighter.
    Senator Inhofe. No, no. But if you take the clock back 10 
or 15 years, there was somebody out there. Russia was actually 
making something that would be competitive. I can go into the 
details and you already know those as to how that would compare 
to our strike vehicles when I first started talking about this.
    My own opinion is that we don't know what our needs are 
going to be in the future. It could be that we're not going to 
have the ground capability or the need for it. But I don't want 
to take that risk. The only way I see to make this happen is to 
have the best of everything.
    I agree with you, they're not out there right now. I think 
that's because we have gotten beyond that point and we are 
talking about the F-22, we are talking about the Joint Strike 
Fighter. But for a while that was impaired.
    Dr. Krepinevich. The way I've always tried to look at these 
situations is from the point of view of what are the major 
problems that the U.S. military has to be able to solve. I'm 
getting a little bit off track, but I think right now we have a 
problem in that we are being progressively locked out of our 
ability to project power to the Far East and to the Persian 
Gulf. With the advent of the kind of capability that Hezbollah 
showed in the second Lebanon war, we are going to be 
progressively finding it difficult when we can project power to 
defend those things that we seize forward because of the growth 
of these extended range rockets, artillery, missiles, and 
mortars.
    We are going to be confronted with irregular warfare on a 
persistent basis, and we are already being challenged in what 
the military calls the global commons, which is space and cyber 
space, by the Chinese, and progressively the seas and the 
undersea, most likely by the Chinese as well. That is a wide 
array of problems that I think are clear, they're unambiguous. 
There may be others that surprise us, but I think these are 
definite.
    I think when Secretary Gates talks about a balanced defense 
he means you have to cover all these bases. When I talk about a 
balanced Army, I talk about an Army that I think is overly 
balanced in favor of traditional conventional war and not 
sufficiently focused on irregular war.
    Senator Inhofe. I don't have the faith in the accuracy of 
our crystal ball right now, and that's my major concern.
    But thank you all for your testimony and for your comments.
    I've abused the time a little bit, but you guys weren't 
here.
    Senator Lieberman [presiding]. That was interesting. 
Thanks, Senator Inhofe.
    Let me come back to Dr. Mansoor and ask you a question 
about FCS. Based on what you said and to put it maybe more 
simply than I should, the choice here is between developing or 
investing in systems, equipment, and hardware that is 
responsive to actual strategic challenges that the Army faces, 
and on the other hand, and I'm going to spin it a little bit, 
modernizing for the sake of modernizing. I understand that's 
generally a critical comment about FCS.
    So let me ask you, if you had your druthers, what would you 
be investing in now in terms of better equipping the Army to 
face the challenges that it will face in the future? As part of 
that answer, are there any components of FCS that you 
particularly would continue to develop?
    Dr. Mansoor. Thank you, Senator. Actually, I think that 
we're on the right track in terms of equipping our force for 
counterinsurgency operations. We've spent about $20 billion 
equipping our Army with the Mine-Resistant Ambush-Protected 
vehicles that have proven very, very valuable. The Stryker 
vehicle has also proven very valuable.
    Abrams tanks and Bradley Infantry Fighting Vehicles, when 
properly modernized and added with added applique armor and so 
forth, have been proven very effective. These are the kinds of 
things that we can continue to provide our forces with as they 
reset and continue to fight these kinds of wars. Meanwhile, we 
can continue to conduct the research and development to reduce 
that tactical and technical risk that Dr. Krepinevich talked 
about, rather than pushing FCS quickly into the hands of our 
forces, because it is designed really for high-end combat that 
no one at this table, I think, believes is going to happen in 
the next decade or two. Therefore, we have some time to get it 
right.
    In terms of the pieces of the system, because it is being 
spiraled out bit by bit into the field, there are pieces of the 
system that are really useful. I think the network once it's 
proved viable is a very valuable tool, no matter what platforms 
it's used on. The unmanned aerial vehicles, especially if 
they're armed, have been proven very useful both in 
counterinsurgency warfare and in high-end combat. So those are 
two examples of systems that I would continue to push forward 
into the hands of our troops. There are undoubtedly others. As 
Senator Inhofe said, we definitely need to replace our 
artillery systems because they're aging beyond the useful life 
of the system.
    So pieces of FCS are really crucial, but we don't 
necessarily need the entire system of systems all at the same 
time.
    Senator Lieberman. Okay, that's very helpful.
    Tom, did you want to add something?
    Mr. Donnelly. Yes. It's going to be really hard to pick FCS 
apart. That's both the blessing and the curse of the system. 
The network, which I think all of us think is probably the 
signal attribute of the FCS system, is not going to be as 
valuable absent the JTRS or on an M-1, M-2 platform.
    So it would be really difficult to go back to the old 
system of Army modernization, where you did it in a piecemeal 
fashion, and retain the value of the network. The network will 
be limited by the most constraining aspect of the things that 
plug into it. So you can do it and if you're in a budget 
constrained situation you may have to do it. But you're going 
to end up getting less return on your investment if you start 
taking FCS apart in that way.
    Senator Lieberman. Thanks. Thanks for that addition.
    Let me turn the discussion quickly to the question of the 
size of the Army. Mr. Donnelly has put out a number, but 
basically a concept, too. He has said go back to the 780,000 we 
were at before. I took you mean to meet both the conflicts 
we're going to face, but also to go back to a rotation which 
allowed more time here or at base, and also to allow for more 
time for individual members of the Army to go to the kind of 
educational opportunities that you talked about and have better 
training.
    Dr. Krepinevich and Dr. Mansoor, please give us your 
thoughts about the ideal size of the Army and whether, if you 
reject Mr. Donnelly, you do for reasons of what you consider to 
be reality, which is we're not going to pay for that size Army, 
or whether you think really it's more than we need. To some 
extent I hear you, Andy, saying maybe it is more than we need; 
even if we could afford it, we'd be better with a smaller force 
than that, but one that's highly trained, high quality.
    Dr. Krepinevich. Mr. Chairman, Tom spoke about the Army 
that I served in, the 781,000-soldier Army. That was a garrison 
army. The working environment was very different from the 
working environment of soldiers today. That's one of the 
reasons why the cost of a soldier has gone up 45 percent in 
real terms over the last decade. Even soldiers that according 
to the Army's own metrics are of lower quality, that cost has 
gone up substantially.
    The costs on an annual basis for the 92,000 Army and Marine 
Corps plus-up is estimated at somewhere around $13 to $15 
billion. That's $13 to $15 billion every year. That's on a 
defense budget that is already, according to Congressional 
Budget Office estimates, short an average of $25 to $50 billion 
a year as far as the eye can see. Adding another 200,000 plus 
soldiers to the Army, just doing a linear extrapolation, is 
going to cost you about $30 billion on top of the $14 or $15 
billion we're already paying.
    So that's $45 billion a year every year. Now, would I like 
to have a larger, high quality Army? Yes. But I think we've all 
had a wake-up call in recent months of just how difficult our 
financial situation is. Once we get done spending however many 
trillion dollars we're going to spend, we're going to be 
working like the devil, according to rosy estimates, to get 
deficits down to what only a year or 2 ago, we considered 
entirely intolerable.
    My thinking is that this is not a realistic option, however 
desirable it might be. Again, even if you could create that 
Army, there are contingencies that can happen before we go home 
this evening; if Pakistan unravels for example. Pakistan's 
population is about 180 million. The population of Iraq is 
about 27 million. The equivalent number of brigades we would 
have to send in to try and begin to stabilize Pakistan is well 
over 100. You can't build an Army big enough to deal with some 
of these contingencies, and that's why I keep going back to the 
path to salvation, if you will, is using our strengths--
training, advising, and equipping indigenous and allied forces. 
We do have allies. They do realize they live in tough 
neighborhoods.
    I would gladly give back a good portion of that 65,000 
increase if I could thicken up the officer and NCO corps, 
because I want those people to be available to do that training 
and advising while I keep my current brigade force as a surge 
emergency force, and again not orient more of the Active 
brigades on being able to do that well, as opposed to being 
deployed and having to play Mr. Potatohead, pulling all this 
off and plugging all that in to see if we can get a unit that 
can operate at a fairly high level of effectiveness in that 
environment.
    Senator Lieberman. Would you give us a number? Would you go 
up some if you could from the 547,000?
    Dr. Krepinevich. If it was a no-cost option, I suspect I 
would go up. My emphasis wouldn't be on adding six additional 
brigade combat teams. It would be on thickening up the 
institutional Army with officers and NCOs and creating the 
kinds of support elements that Dr. Mansoor was talking about in 
terms of engineers, in terms of intelligence elements and so 
on, to make those brigade combat teams much more effective in 
an irregular warfare environment.
    Senator Lieberman. Dr. Mansoor, I'm way over my time and I 
want to give Senator Thune the opportunity. Can you give me a 
quick answer to the question, or do you want to wait until the 
next round?
    Dr. Mansoor. I can do it real quick, Mr. Chairman. In my 
testimony I called for restructuring our brigade combat teams 
to make them more capable in both a counterinsurgency and in a 
conventional warfare environment, which would include 
additional infantry, engineers, and staff elements. That would 
cost, I think, about 45,000 troops.
    We also need to increase our officer corps to provide the 
kind of advisory capability that is really crucial to our 
national security, and we need to create an institutional home 
for this advisory effort as well.
    I think when you add all that to the current Army end 
strength you get somewhere around 600,000.
    Senator Lieberman. Great. Thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Gentlemen, the Army maintains sets of prepositioned stocks 
of combat support vehicles for contingency use. My question is, 
given the threats that we face in the 21st century, are these 
stocks still important? If so, should DOD ensure that these 
stocks are maintained at high levels and expand the program?
    Mr. Donnelly. Anybody in particular?
    Senator Thune. Nobody in particular. Fire away.
    Mr. Donnelly. I think they are less, the environment has 
changed. I think those were hedges made against uncertainty and 
particularly uncertainty in the Persian Gulf and the Middle 
East when you come to land force sets. Again, my view would be 
that we pretty clearly see, at least for planning purposes, the 
road ahead in the Middle East. That doesn't mean that I don't 
think that land force equipment sets don't need to be flushed 
out. I just don't think that they need to be in prepositioning 
sets sitting in Diego Garcia or in warehouses in Kuwait.
    Andy has suggested that one of our strengths could be 
equipping new allies like the Iraqi army or the Afghan National 
Army. So there would be needs to again build up equipment 
stocks to do that, and also to replenish our own equipment 
stocks.
    But as to the narrow question of the prepositioning sets of 
the kind that we used to have, if you gave me more vehicles and 
more stuff, I'd use them for other things first.
    Dr. Krepinevich. Senator, I think that's a very good 
question. One of the things I think that our experience in the 
1990s led us to believe is that we don't suffer any attrition 
in combat. We lost very little in the Gulf War, very little in 
the contingencies in the Balkans, Somalia, and other places. 
Yet the Army has really been confronted with a lot of attrition 
of its equipment in these wars in Afghanistan and in Iraq, to 
the point where we have brigades coming back to the United 
States that essentially have to leave a lot of their equipment 
overseas, and they remain generally underequipped as they begin 
to train up for the next deployment.
    So I would say, whether you want to call them war reserve 
stocks or something along those lines, we need to build up that 
kind of an inventory because our industrial base can't surge 
the way it did during World War II, cranking out enormous 
quantities of equipment.
    I would also say that we need to think about how we would 
equip indigenous forces, because I agree with Senator Inhofe, 
while we might take the approach of wanting the best for our 
young soldiers and marines, limits on resources and just other 
hard factors may say we don't have to give the best of 
everything to indigenous forces or to our allies. We can give 
them equipment that is good enough because we do have resource 
constraints.
    I've spoken to a few Army generals who privately admit that 
this makes a lot of sense if you're going to have a strategy 
that says the sooner we equip the Afghan National Army, the 
sooner we can train them, the sooner we can get them in the 
field, the sooner we can begin to draw down our commitment 
there and release our forces for other commitments.
    So I think the issue of war reserve stocks makes a lot of 
sense, both in terms of our own forces suffering attrition, but 
also in terms of rapidly being able to equip indigenous and 
allied forces.
    Dr. Mansoor. Senator, the prepositioned stocks tend to be 
heavy brigade combat team sets. The issue with the Army is it 
has so many different types of equipment that it's almost 
impossible to find a unit that can fall into that set of 
specific equipment and use it off the shelf. In addition, the 
sets being arrayed in the Middle East and Korea and elsewhere 
are very vulnerable to first strikes.
    So if I had to make a choice I would save the money by 
getting rid of the stocks and putting more money into fast 
sealift.
    Senator Thune. Let me ask you a little bit about the Army. 
It maintains that by organizing around brigade combat teams and 
supporting brigades it'll be better able to meet the challenges 
of the 21st century security environment, specifically to 
jointly fight and to win the global war on terrorism. How do 
each of you think that modularity is progressing and what 
changes, if any, would you recommend?
    Mr. Donnelly. My view would be that I think modularity has 
gone too far. As Dr. Mansoor suggested, we redesigned a brigade 
that's a heck of a lot smaller and took the manpower savings 
from FCS being able to perfectly see the battlefield before we 
had the technological capabilities to do so. It's not 
surprising that every time a brigade combat team deploys to a 
theater of operations now they get plussed up a lot with a lot 
of the same things, although some very different things that we 
took away, such as military intelligence, engineers, military 
police, et cetera, et cetera.
    So the brigade organization that we currently have is a 
very fragile organization, and in a long war environment you 
have to ask yourself, at least above the brigade echelon, 
whether we are well-configured for long-term sustainment 
operations. In Afghanistan, for example, we're going to require 
a lot more support forces just because of the nature of the 
dispersed and the immature, undeveloped nature of the country.
    So we have designed a perfect little brigade that's a big 
risk.
    Senator Thune. Anybody else?
    Dr. Krepinevich. Just two quick observations. First, I 
think the idea of having brigades that are independently 
deployable certainly has been a benefit to us and allowed us a 
certain amount of flexibility.
    Second, the Army is planning to have 19 heavy brigade 
combat teams, and 0 brigades that are oriented on irregular 
warfare. There was some discussion in the Army G-8 staff 
element about security cooperation brigade combat teams, and I 
thought, while the Army hasn't followed through on that, some 
of the ideas in there fall along the lines that Dr. Mansoor was 
talking about. I would like to see about 15 brigades in the 
Active Force and 15 brigades in the National Guard that are 
oriented on those kinds of missions. The fact that they would 
be independently deployable, I think, would enable them not 
necessarily even to have to deploy as a brigade. They might be 
able to send a battalion to the Philippines to deal with a 
specific request, a company to Kenya, and so on. To have 
brigades that in a sense can help keep the lid on things and 
build partner capacity, as opposed to letting things get out of 
control and us having to do it ourselves and deal with a much 
more threatening environment.
    Dr. Mansoor. Senator, I would have to agree with my 
colleagues here at the table. The modular brigades as currently 
organized and equipped have insufficient staff for the missions 
they're being called upon to execute. They lack engineers and 
military police. Most importantly from both conventional and 
irregular warfare standpoints, they don't have enough troops. 
They lack a third maneuver unit, which almost every historical 
study would indicate is needed both in conventional warfare and 
would add additional infantry as well for counterinsurgency 
warfare.
    So I think the Army made a good decision going to modular 
brigades and then designed them incorrectly.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you all very much. I appreciated very much your 
testimony and your very candid observations.
    Senator Lieberman. Thanks, Senator Thune. I agree, it's 
been a very productive afternoon. As we mentioned earlier, we 
have to go over to a briefing with Ambassador Holbrooke on 
Afghanistan and Pakistan. But I want to thank you.
    We have some big decisions to make. It may be that we will 
ultimately not make a big decision about the size of the Army, 
although I think we should. Maybe we'll be forced to do that by 
amendment on the floor. But there's no question that the 
administration's budget will confront us with some big 
decisions about how to equip the Army. I could be mistaken, but 
I don't think I am. I think there's going to be some 
recommendations for change.
    Really, what you've said today and what you've written in 
your very thoughtful prepared statements is very helpful to us. 
As a matter of fact, I'm going to give you a request right now, 
that when the President's budget does come in in detail, I 
invite each of you to respond, particularly on what it does 
about equipment and systems, and offer us some alternatives if 
you think there are some better ones beyond what we've talked 
about today.
    Thank you very much. You've done a real service to the 
committee and we hope in turn to the country.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Evan Bayh

                      SUPPLEMENTAL BUDGET REQUESTS

    1. Senator Bayh. Dr. Krepinevich and Mr. Donnelly, according to the 
recently signed Status of Forces Agreement with Iraq, American combat 
troops will begin leaving Iraq very soon. How do you believe the 
administration should address the significant need for equipment 
recapitalization and reset while also weaning the Department off of 
supplemental budget requests?
    Dr. Krepinevich. The Army has estimated the reset cost at $12 to 
$13 billion per year, and the Marine Corps has estimated its costs at 
$5 billion per year. Funding in previous supplemental appropriations 
has been more than sufficient to meet these costs. The budget request 
for fiscal year 2010 for Overseas Contingency Operations includes $17.6 
billion for this purpose, which also appears to be adequate given the 
Services' previous statements. Since we have many years of experience 
in the current conflicts, the costs of maintaining and repairing 
equipment should be more predictable. Thus, assuming the conflicts in 
Afghanistan and Iraq remain roughly at their current levels of 
intensity, the Services should now be able to accurately forecast these 
costs in their annual budget requests.
    Mr. Donnelly declined to respond in time for printing. When 
received, answer will be retained in committee files.

    2. Senator Bayh. Dr. Krepinevich and Mr. Donnelly, what risks does 
the Department of Defense face by continuing to rely so heavily on the 
supplemental process?
    Dr. Krepinevich. Supplemental appropriations are a useful tool for 
dealing with unforeseeable costs that cannot be accommodated through 
the regular appropriations process. Supplemental appropriations have 
been used to fund previous wars, especially at the onset of conflict, 
though not to the extent that they have been used in the current wars 
in Iraq and Afghanistan. In Vietnam, for example, supplemental 
appropriations were used almost exclusively in the beginning (fiscal 
years 1965-1966) when the costs and duration of the conflict were 
uncertain. In later years, the Department gradually transitioned 
funding of the war to the base budget. By fiscal year 1970, nearly all 
of the war costs were funded through the base budget.
    Some of the disadvantages of continuing to fund the wars through 
supplemental appropriations are that the funding process lacks 
strategic planning and erodes discipline in the DOD budgeting process. 
The usual process of planning and programming for future years forces 
the Services to prioritize needs and to think more strategically about 
where to make investments. The use of supplemental has undermined that 
process by allowing items that are not funded in the base budget to be 
added to a supplemental request--thereby short-circuiting the 
prioritization process. Without strategic planning and prioritization, 
the risk is that these funds will be spent on misplaced priorities and 
weapon systems that do not fit into a long-range strategy. Furthermore, 
many of the items in the supplemental appropriations are not one-time 
costs. They incur ongoing operations and maintenance expenses that can 
tie the Services' hands when it comes to funding future modernization 
efforts.
    Mr. Donnelly declined to respond in time for printing. When 
received, answer will be retained in committee files.

                       PROCUREMENT AND RESOURCING

    3. Senator Bayh. Dr. Krepinevich, Mr. Donnelly, and Dr. Mansoor, 
how do you believe the administration should resource forces deployed 
to Iraq and Afghanistan? Specifically, how would you advise they 
balance the need for counterinsurgency capabilities of today with the 
conventional deterrence capabilities that may be needed for tomorrow?
    Dr. Krepinevich. For a variety of reasons, including the difficulty 
of preparing for both irregular and conventional conflicts, the Army 
has continued to place its institutional center of gravity squarely in 
the area of conventional warfare. This is true both for the Army's core 
modernization program, the Future Combat Systems (FCS), and its overall 
force structure. While the FCS program is ``optimized'' for 
conventional operations, and while the Army, in the interim, plans to 
field an Active component that arguably is overly weighted toward 
conventional operations, the Service has also decided against fielding 
brigades oriented on irregular warfare missions such as stability 
operations, counterinsurgency, and foreign internal defense.
    What, then, should the Army do differently? How can it best prepare 
for irregular conflicts while still maintaining a dominant capability 
for high-end conventional warfare? The answer lies in developing and 
fielding a force fully capable of conducting and, if need be, surging 
for irregular warfare operations, in addition to its capability to 
conduct and surge for large-scale conventional operations. Should 
either form of conflict prove protracted, the other wing of the force 
could, over the course of the initial 12- to 15-month surge, undergo 
training and the appropriate force structure modifications to enable it 
to ``swing in'' behind the surge force to sustain operations.
    What would this dual surge force look like? First, 15 Army Infantry 
Brigade Combat Teams (IBCTs) and 15 Army National Guard IBCTs would be 
converted to Security Cooperation Brigade Combat Teams (SC BCTs), 
oriented primarily for irregular warfare operations. With a 3:1 
rotation base in the Active component and a 6:1 rotation base for the 
Reserve component, this would allow for seven and a half SC BCTs to be 
fielded on a sustained basis, serving as the Army's phase 0 forward 
presence forces. It would also provide a pool of 30 brigades to draw 
upon in the event that a major stability operations contingency 
requires a surge of forces.
    Second, because the best strategy when addressing the threat of 
irregular warfare is to build partner capacity and engage in other 
preventive measures before a friendly country is at risk, the Army 
should also develop and maintain a significant training and advisory 
capability that can be deployed on short notice when necessary. The 
officers and noncommissioned officers for this mission can be sourced 
from the institutional Army--the Army's staffs and education 
facilities, which should be either fully staffed or slightly 
overstaffed in anticipation of the demand for trainers and advisors.
    Third, since the Army may need to fill any gaps in the U.S. 
interagency effort to restore governance and enable economic 
reconstruction, it should strongly consider maintaining the ability to 
field Civil Operations, Reconstruction and Development Support (CORDS) 
groups capable of providing advice, mentoring, and support to the host 
nation's non-security institutions (including its civil administration 
and its legal, economic, and healthcare sectors).
    Finally, for high-end conventional operations, the Army's primary 
capability should consist of 12 heavy BCTs (HBCTs), an armored cavalry 
regiment, and 9 National Guard HBCTs. This would give the Army a surge 
force of up to 21 HBCTs, in addition to the 6 Stryker BCTs in the 
Active component, 1 Stryker BCT in the Reserve component, and 4 
brigades of the 101st Airborne Division (Air Assault)--a total of 32 
heavy or ``middle-weight'' brigades, far in excess of what is likely to 
be required for a conventional major combat operation.
    The Army's centerpiece modernization program, the FCS, is really a 
cluster of 14 systems of various types. These systems will rely heavily 
on being linked to an overarching battle network that also ties them 
together with individual soldiers and the U.S. military's joint battle 
network. While revolutionary in its concept, given the many technical 
challenges confronting it, the FCS program may not be executable at an 
acceptable cost. Furthermore, it may not be technically possible to 
create the battle network, as currently envisioned by the Army, or to 
create it within the timeframe projected. Finally, as the FCS is 
optimized for conventional warfare, it is not clear it represents the 
best use of resources in this era of protracted irregular warfare 
confronting the Army. Given these considerations, Secretary of Defense 
Robert Gates made the right decision to cancel the FCS ground combat 
systems, while looking to harvest as many FCS capabilities as possible.
    At the same time, the Army should strongly consider establishing 
war reserve stocks of equipment to support irregular warfare 
operations, both to enable the rapid buildup of indigenous forces as 
necessary, and to replace the equipment of Army BCTs damaged or 
destroyed in the course of conducting irregular warfare operations.
    Ultimately, this approach would yield a force more balanced between 
the demands of irregular and conventional operations.
    Mr. Donnelly declined to respond in time for printing. When 
received, answer will be retained in committee files.
    Dr. Mansoor. Our land forces clearly need a set of balanced 
capabilities to fight the wars we are engaged in today while hedging 
against the risk of a much more dangerous conventional conflict in the 
future. I do not see these requirements as mutually exclusive. 
Designing effective formations that can operate effectively in both 
conventional and irregular wars is the most important issue facing the 
Army today.
    The current BCT organization is fatally flawed. Fixing the 
structure will give the Service added capabilities in both conventional 
and irregular wars. Brigades that are tailored for counterinsurgency 
operations would include a third maneuver battalion (primarily 
infantry), a full engineer battalion, more military police, added staff 
capabilities, and additional intelligence, surveillance, and 
reconnaissance assets--particularly armed reconnaissance units that can 
engage the people and fight for information. The need for more infantry 
and engineers is especially critical. Reconfiguring the Army's BCTs 
will make them more capable not just in counterinsurgency warfare, but 
across the spectrum of conflict. I estimate these added capabilities, 
when applied across the force, would require an additional 45,000 to 
50,000 soldiers to the Army's end strength.
    Another important issue is the size of the officer and 
noncommissioned officer corps. The officer and noncommissioned officer 
corps are too small to provide the numbers of advisers that are 
required to meet our national security needs. Advisers help to organize 
and train foreign military forces so that they can defend their own 
states, rather than having U.S. forces continually engaged on foreign 
soil. In an environment where a number of key strategic allies are 
threatened with insurgencies, advisers are increasingly critical to our 
national security. Advisers are taken mainly from the pool of mid-
career officers and noncommissioned officers. Due to human resource 
decisions made in the 1990s, the Army and Marine Corps do not have 
enough slack in their personnel systems to provide the increasing 
numbers of advisers called for by our combatant commanders. To meet 
this need, we should create an institutional home for advisers in the 
Armed Forces, along with increasing the size of the officer and 
noncommissioned officer corps to enable the armed services to provide 
the numbers of advisers necessary to meet the growing need.

    4. Senator Bayh. Dr. Krepinevich, Mr. Donnelly, and Dr. Mansoor, if 
you were rebaselining the defense budget by taking into account lessons 
learned from Iraq, Afghanistan, and war on terror needs, what weapons 
systems and training competencies would be your highest procurement 
priorities?
    Dr. Krepinevich. One of the most important missions our forces 
carry out today is training and advising indigenous forces in Iraq, 
Afghanistan, and other nations so that they can provide adequate 
security for their own people. The Army maintains that the advise-and-
assist mission should be one of the core capabilities in which all 
soldiers are trained. To date, the soldiers used in this capacity have 
been rotated into this mission area for durations of a few months to a 
year. Yet it takes time for soldiers to develop a high degree of 
competency in the advise-and-assist mission. Given the lessons learned 
in Iraq and Afghanistan, the Army should consider establishing a cadre 
of trained officers and noncommissioned officers that are specialized 
in this mission.
    If we are to pursue a strategy of the ``indirect approach'' to 
irregular warfare, whereby we build up the ability of indigenous forces 
to provide for their own country's security, and deploy large numbers 
of our own ground combat forces only in extremis, then we will need to 
establish stocks of unit sets of equipment for these indigenous forces. 
It does little good to train and advise host nation forces if they 
cannot be properly equipped. These ``war reserve stocks'' would 
comprise equipment more suited to irregular warfare and to the skills 
of local forces. This equipment would be less sophisticated--and far 
less expensive--than comparable equipment provided to U.S. troops.
    As for equipping U.S. troops, I believe the next big thing in 
irregular warfare will be the enemy's use of guided rockets, artillery, 
mortars, and missiles (G-RAMM). This follows logically from Hezbollah's 
use of unguided RAMM during the Second Lebanon War. In that conflict 
over 4,000 RAMM projectiles were fired into Israel. Defenses need to be 
established against this threat. Among the priorities for investigation 
and potential procurement are directed-energy interceptors (especially 
solid-state laser systems), and equipment that would assist ``hunter-
killer'' teams to suppress G-RAMM launch sites, suppress attacks, and 
intercept projectiles in their early (or boost) phases. Among the 
systems that might play a useful role in addressing this challenge are 
long endurance aircraft (manned and unmanned) equipped with kinetic or 
directed-energy interceptors, and advanced unattended ground sensors.
    Mr. Donnelly declined to respond in time for printing. When 
received, answer will be retained in committee files.
    Dr. Mansoor. History suggests that the most effective modernization 
programs are those aimed at meeting real strategic needs against 
specific enemy threats. Our Armed Forces must therefore examine 
carefully the battlefields of Iraq and Afghanistan, along with the wide 
range of potential threats in other areas of the world, to determine 
what capabilities they need. Modernizing our forces based on historical 
military theories focusing on imagined or mirror-imaged enemies would 
most likely lead to the creation of equipment ill-suited to the wars 
our Nation will fight, now and in the future.
    High on the list of required capabilities today is the development 
of a wheeled combat vehicle with adequate combat capabilities and armor 
protection for use in both irregular and conventional conflicts. Abrams 
tanks and Bradley infantry fighting vehicles are too heavy and their 
tracks cannot withstand movement over extended distances. The Stryker 
wheeled vehicle has proven its value in Iraq, but is too lightly armed 
and armored. The Army and Marine Corps need to find a happy medium 
between these two existing capabilities.
    In Iraq and Afghanistan the distances covered by our combat forces 
is vast, but most engagements are fought at ranges of less than 500 
meters. The roadside bomb threat is substantial and growing. Mines and 
underbelly improvised explosive devices are an increasing danger to our 
forces. The Army and Marine Corps, therefore, should develop a capable 
wheeled combat vehicle that can operate successfully against these 
growing threats.
    Our forces cannot simply rely on better information to protect 
themselves and engage the enemy at extended distances. The fog, 
friction, and uncertainty of war will ensure that our troops will 
require the capability to engage in close-in combat in the future. 
Provision of lightweight armor that can withstand roadside bomb and 
mine blasts and rocket propelled grenade fire is therefore essential. 
Our Nation should energize the scientific and industrial base to meet 
this need. Advances in titanium refining technology, along with new 
composite materials, suggest that finding a technological solution to 
this need is not beyond our reach.
    The Army and Marine Corps can increase the effectiveness of our 
forces by networking them together with satellite or wireless command 
and control systems. Work should be continued on the FCS network (now 
divorced from the FCS ground platforms) to meet this need.
    Aerial reconnaissance and fires are critical to the success of our 
forces in Iraq and Afghanistan. Armed unmanned aerial vehicles in 
particular have proven critical and the production of these systems 
should be increased. Although unmanned aerial vehicles have proven 
their worth, capable manned helicopters are also essential as they meet 
a variety of needs that unmanned systems cannot. The top priority in 
this regard is the provision of an armed reconnaissance helicopter to 
replace the aging OH-58D Kiowa Warrior.
    The Army and the Marine Corps have already taken steps to increase 
the training of their forces in counterinsurgency warfare, but more can 
be done. Counterinsurgency warfare requires a host of added 
competencies that preparation for conventional war does not address. In 
particular, professional military education needs to be expanded to 
ensure America's military leaders are intellectually prepared with a 
broader, deeper grasp of the world in which we live to cope with the 
requirements needed for the wars America will fight in the decades 
ahead. In this vein, increased educational opportunities should be 
provided to send the very best mid-grade officers for graduate 
schooling at America's universities. Doing so will not only help them 
prepare for the murky irregular wars of the 21st century, but will help 
to bridge the divide between the military and American civil society as 
well.

    [Whereupon, at 4:05 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
